<html>
<title> - OVERSIGHT HEARING ON FEDERAL DRINKING WATER PROGRAMS</title>
<body><pre>[Senate Hearing 111-1220]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1220
 
                         OVERSIGHT HEARING ON 
                    FEDERAL DRINKING WATER PROGRAMS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 8, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
  
  
  


       Available via the World Wide Web: http://www.gpo.gov/fdsys
    
                               _________ 

                   U.S. GOVERNMENT PUBLISHING OFFICE
                  
 20-186 PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 
               
       
       
       
       
       
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            DECEMBER 8, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................    11
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    12
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................    76
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New 
  York, prepared statement.......................................   198

                               WITNESSES

Silva, Peter S., Assistant Administrator for Water, U.S. 
  Environmental Protection Agency................................    14
    Prepared statement of Mr. Silva and Ms. Giles................    16
    Responses to additional questions from:
        Senator Boxer............................................    27
        Senator Cardin...........................................    34
    Response to an additional question from Senator Whitehouse...    36
    Responses to additional questions from:
        Senator Inhofe...........................................    38
        Senator Vitter...........................................    40
Giles, Cynthia J., Assistant Administrator for Enforcement and 
  Compliance Assurance, U.S. Environmental Protection Agency.....    42
    Responses to additional questions from:
        Senator Boxer............................................    43
        Senator Cardin...........................................    46
    Response to an additional question from Senator Whitehouse...    47
    Responses to additional questions from:
        Senator Inhofe...........................................    48
        Senator Vitter...........................................    50
Larsen, Matthew C., Associate Director for Water, U.S. Geological 
  Survey, U.S. Department of the Interior........................    51
    Prepared statement...........................................    53
    Responses to additional questions from:
        Senator Boxer............................................    64
        Senator Cardin...........................................    65
    Response to an additional question from Senator Inhofe.......    66
Paulson, Jerome A., M.D., FAAP, Professor, The George Washington 
  School of Public Health and Health Services, on behalf of the 
  American Academy of Pediatrics.................................   124
    Prepared statement...........................................   127
    Responses to additional questions from Senator Boxer.........   139
Baker, Michael G., President, Association of State Drinking Water 
  Administrators.................................................   142
    Prepared statement...........................................   144
    Responses to additional questions from Senator Inhofe........   163
Whatley, Gene, Executive Director, Oklahoma Rural Water 
  Association....................................................   166
    Prepared statement...........................................   168
    Responses to additional questions from Senator Inhofe........   171
Griffiths, Jeffrey K., M.D., MPH&TM, Department of Public Health 
  and Community Medicine, Associate Professor of Public Health 
  and of Medicine, Tufts University School of Medicine...........   174
    Prepared statement...........................................   176
    Responses to additional questions from:
        Senator Boxer............................................   180
        Senator Inhofe...........................................   183


          OVERSIGHT HEARING ON FEDERAL DRINKING WATER PROGRAMS

                              ----------                              


                       TUESDAY, DECEMBER 8, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Cardin, 
Klobuchar, Whitehouse, and Udall.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The hearing will come to order.
    Welcome to our panelists.
    Congress passed the Safe Drinking Water Act in 1974 to 
protect public health by regulating the Nation's public 
drinking water supply. When President Ford signed the 
legislation into law, he spoke eloquently about the importance 
of providing Federal protections for drinking water.
    One of the reasons I called this hearing is because I am 
concerned that the Federal Government has not done enough in 
recent years to maintain and improve drinking water safeguards. 
I want to ensure the Federal Government fully and effectively 
utilizes its authority under the law, and I want to ensure that 
EPA has the tools it needs to protect our children and 
communities all across this Nation from dangerous water 
contamination.
    For example, perchlorate is a toxic chemical contained in 
rocket fuel. It does not belong in our drinking water. But the 
last Administration refused to set a drinking water standard 
for perchlorate despite strong scientific evidence that 
perchlorate is a public health threat. And so I believe it has 
left millions of Americans in dozens of States, including 
California, at risk.
    That is why I asked Administrator Jackson in January to use 
the best available science to reconsider EPA's interim decision 
not to regulate perchlorate. And I am very pleased to say that 
they are taking another look at addressing this threat posed 
from perchlorate.
    Americans also have a right to expect that their children 
are safe from drinking water pollution in their schools. But 
the Associated Press reported this year on toxic drinking water 
pollution, including lead contamination, in the drinking water 
of thousands of schools across this Nation. I have asked the 
Administrator to develop a plan to address this unacceptable 
threat to America's school children.
    So, I look forward to hearing from EPA about all these 
issues. I have also asked them to testify today specifically 
about steps they can take to improve assistance to small 
systems, to improve the effectiveness of enforcement and 
compliance, to improve transparency, and to better protect our 
children's health.
    We have taken steps in this committee that demonstrate 
strong bipartisan support for water infrastructure improvements 
including the passage, 17 to 2, of S. 1005, the Water 
Infrastructure Financing Act, which would provide nearly $15 
billion from 2010 to 2014 for EPA's Drinking Water State 
Revolving Fund. And Senator Inhofe and I are trying very hard 
to get this up before the Senate and passed.
    In addition, the stimulus bill provided approximately $2 
billion for this program. I worked hard to get those funds 
included because I believe investing in our water 
infrastructure not only protects public health, but it creates 
good jobs in communities across the Nation.
    I want to thank our distinguished witnesses, and I reserve 
the balance of my time.
    I call on Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman, for taking the 
time today to discuss this issue. It is a very significant 
issue. The Safe Drinking Water Act has been a great success in 
providing Americans with clean, safe drinking water, and as our 
technology has improved we are able to detect smaller and 
smaller amounts of contaminants. And because of this EPA is 
regulating more contaminants.
    But complying with EPA's new regulations is difficult. Many 
Oklahoman municipalities continue to struggle with the 2002 
arsenic rule, and many of our small systems are having a 
difficult time with the disinfection by-product stage I rule. 
Small systems that purchase water from other systems and 
previously not required to test, treat and monitor their water 
are further burdened by this.
    Because I worry about the challenges facing small systems, 
I am pleased today--not on this panel, but on the next panel--
to have Gene Whatley from the Oklahoma Rural Water Association. 
Gene understands the problems facing small drinking water 
systems, and I look forward to his testimony on how small 
systems are coping with Federal regulations.
    Some of the fear to make changes in this Safe Drinking 
Water Act is driven by press attention to reports of issues 
like recent polls on the pharmaceuticals in drinking water. I 
remind my colleagues that in 1996, under the leadership of 
Chairman Chafee and Ranking Member Baucus, we amended the law 
by requiring EPA to set standards if contaminants have known 
health effects or are known to occur in public water systems 
with a frequency and at levels of public health concern. I am 
quoting that. We should allow EPA to keep working on through 
this problem and try not to preempt it.
    I am also reminding the committee that one of the most 
important steps Congress can take to improve our Nation's 
drinking water facilities is to reauthorize the State Revolving 
Loan Fund Programs. The Chairman and I have been very concerned 
about that and Senators Cardin, Crapo and I, and I believe the 
Chairman also, have worked hard to put together amendments to 
accomplish that.
    I would like to say--put something in the record here. But 
let me tell you what it is. There is a poll done. It shows how 
really serious this is. People do not realize that people are 
concerned about this issue. The Gallup Poll just released said 
that pollution of drinking water, Madam Chairman, is America's 
No. 1 environmental concern, with 59 percent saying they worry 
a great deal about the issue according to the Gallup Poll. It 
was just released this year.
    And I am quoting further. That exceeds the 45 percent 
worried about air pollution, the 42 percent about the loss of 
the tropical rainforest, and it goes on down, and it gets to 
global warming. It is interesting that twice as many people are 
concerned about the pollution of drinking water than they are 
global warming.
    I want that in the record for two reasons. One, the obvious 
one, the other one to show how important drinking water is.
    Senator Boxer. Without objection. So ordered.
    Senator Inhofe. That is it.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
    
    
    
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Madam Chairman, for taking the time today to 
discuss our Nation's Federal drinking water programs. I think 
there is one thing that everyone in this room can agree on: 
clean, safe, affordable drinking water is a national priority.
    Through the Safe Drinking Water Act, we have had great 
success in providing America with clean, safe drinking water. 
As our technology has improved, we have been able to detect 
smaller amounts of contaminants, and EPA has regulated more 
contaminants.
    Complying with EPA's new regulations has been difficult. 
Oklahoma has municipalities who struggle with the 2002 arsenic 
rule, and many of our small systems are having difficulty with 
the Disinfection Byproducts Stage I rule. Additionally, small 
systems that purchase water from other systems and were 
previously not required to test, treat or monitor their water 
must now comply with Disinfection Byproducts Stage II rule.
    I am pleased today that we will hear from Gene Whatley of 
the Oklahoma Rural Water Association. Gene understands the 
problems facing small drinking water systems, and I look 
forward to his testimony on how small systems are coping with 
Federal regulations.
    I know there have been many press reports recently about 
pharmaceuticals and other chemicals in drinking water. Our 
committee has held hearings on these issues in April and May 
2008. I would remind my colleagues that in 1996, under 
leadership of former Chairman Chafee and Ranking Member Baucus, 
Congress was successful in amending the Safe Drinking Water 
Act. Here's what they did: The amendments required EPA to set 
standards if the contaminants ``have known health effects,'' 
and are ``known to occur in public water systems with a 
frequency and at levels of public health concern.'' The 
amendments also gave EPA the opportunity for ``health risk 
reduction for persons served by a public water system.'' I 
encourage my colleagues to allow EPA to keep working through 
this process--we don't need new legislation that requires EPA 
to set standards for chemicals simply because they have 
received press attention.
    I would also like to take the opportunity to remind the 
committee that we need to improve our Nation's drinking water 
facilities by reauthorizing the State Revolving Loan Fund 
programs, both for drinking water and waste water. We cannot 
expect our communities to continue to provide safe drinking 
water if they do not have the resources to meet their 
infrastructure needs. This committee has the responsibility to 
ensure clean, safe, and affordable water for our country by 
providing the necessary resources to States and local 
governments. Madam Chairman, EPA estimates that over the next 
20 years eligible drinking water systems will need over $300 
billion in infrastructure investments. I believe that many of 
the issues we are discussing today will be helped by passing S. 
1005, the Water Infrastructure Financing Act.
    Thank you again for holding this important hearing, and I 
look forward to hearing from our witnesses.

    Senator Boxer. That is it? OK.
    Senator Lautenberg.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Thank you, Madam Chairman.
    The one thing that we all know is the importance of clean, 
safe water to our society, essential for our health and the 
health and well-being of our children. And that is why it is 
incumbent upon us to ensure that America's water supply is 
safe.
    When Congress passed the Safe Drinking Water Act, the EPA 
gained the authority to regulate the chemicals in our drinking 
water. But even with that authority, there is still troubling 
evidence that chemicals and other substances are polluting the 
Nation's water supply.
    Right now, there are more than 140 chemicals in our 
drinking water that EPA does not regulate, according to a 
recent study. In some parts of the country these chemicals 
include gasoline and additive pesticides, even rocket fuel. And 
it does not take a rocket scientist to figure out that you 
should not be drinking rocket fuel.
    In other parts of the country, these chemicals include 
additives to produce natural gas. The concentration of 
chemicals in some places is so high that you can literally 
light the water on fire. These chemicals have proven, negative 
effects on people's health, including some that can cause 
cancer, according to the EPA.
    But even so, in the past EPA has ignored three mandatory 
Safe Drinking Water Act deadlines to set standards for 
unregulated contaminants. And nearly 20 percent of the 
contaminants that EPA is currently considering have been under 
study at the agency for 17 years.
    Some people have turned to bottled water, believing that is 
a safe alternative, that bottled water is healthier than 
sugary, high calorie drinks. And it can be a crucial part of 
our safety net during natural disasters and emergencies. But 
bottled water might provide a false sense of security and an 
expensive one, also. Americans spend more than $8 billion each 
year on bottled water. But what many people do not know is that 
up to 40 percent of bottled water comes straight from the tap.
    And that is why I am introducing, Madam Chairman, the 
Bottled Water Right to Know Act today. And this bill is going 
to provide consumers with information about where their bottled 
water comes from and the quality of the water that they are 
drinking.
    Beyond this new commitment to overseeing our bottled water, 
we find a renewed commitment to protecting our tap water. 
First, we need to enforce the laws that are on the books. 
Second, we need to increase funding for our crumbling water 
infrastructure, including our wastewater and drinking water 
treatment facilities. The EPA estimates that there is a $271 
billion gap between our wastewater treatment plants' needs and 
what they receive. And we have got to close that gap.
    So, I look forward to hearing from our witnesses. I want to 
make mention of the fact that the New York Times today, in a 
front page article, confirms some of our misgivings. It says, 
since 2004 water provided to more than 49 million people has 
contained illegal concentrations of chemicals like arsenic or 
radioactive substances like uranium, as well as dangerous 
bacteria often found in the new age.
    Madam Chairman, it is an appropriate thing that we are 
reviewing this, a little late, but we have got a chance to 
correct some of the problems that we have out there.
    Senator Boxer. Senator, thank you. And I am very glad that 
you are doing something about bottled water. It has been a long 
time concern of mine, so thank you very much for that. We will 
be working with you.
    Senator Klobuchar.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chair. Thank 
you for holding this timely hearing.
    Polluted water, as you all know, has a disproportionate and 
harmful effect on children. And this is something that I would 
like to focus on because of the role that I play as Chair of 
the Subcommittee on Children's Health, Madam Chairman. Thank 
you for that. Children drink more water as a percentage of 
their weight than adults do. So, if the water they are drinking 
is contaminated, children are going to get a bigger dose than 
adults will.
    I have always believed that the first responsibility of 
government is to protect our citizens. In addition to the New 
York Times report that Senator Lautenberg just noted, a few 
months ago the Associated Press reported that over the last 
decade drinking water at thousands of schools across the 
country were found to contain lead, pesticides and dozens of 
other toxins. Contaminants were found at public and private 
schools alike in all 50 States. Forty-one violations were found 
in my State, including four violations in the school district 
where I attended school.
    Ensuring our drinking water is safe requires preventing 
pollutants from entering into our groundwater. But it also 
requires us to ensure that we are safely treating our water 
before it becomes available for us to drink.
    I am pleased, Chairman Boxer, that you and Senator 
Lautenberg convened the hearing last week to discuss reforming 
the Toxic Substances Control Act. I think chemical reform is 
also a very important part of this work.
    Another part of the solution is the enforcement of existing 
laws, and as a former prosecutor I know the role that 
enforcement plays in this equation, and I am pleased that we 
have Ms. Giles here testifying.
    In her first few months in office, Administrator Jackson 
called for the Office of Enforcement and Compliance Assurance 
to develop an action plan and to enhance public transparency 
regarding clean water enforcement. Under new leadership, the 
EPA has decided to place comprehensive reports and data on 
water quality enforcement in all 50 States on the Internet. 
That is certainly helpful for our citizens.
    I look forward to you testimony again, Ms. Giles, and 
hearing how you are ensuring compliance with the Safe Drinking 
Water Act Amendments of 1996.
    A final component in addressing this issue is financing 
infrastructure improvements. This past summer we were able to 
pass the Water Infrastructure Financing Act out of this 
committee. This bipartisan legislation aims to address the 
obstacles that many of our towns and cities are facing, mainly 
difficulty in financing drinking water infrastructure.
    As you know, the Recovery Act also includes funding for 842 
Federal drinking water projects across the country. In my 
State, with the help of Recovery Act funds, in the first 5 
months of the State year 2010, we funded--we are funding 25 
projects, totaling $57 million, more than the previous 2 years 
combined. These projects are critical to helping our 
communities provide safe drinking water for our residents.
    I want to thank you for this opportunity today, Madam 
Chair, and I look forward to hearing from our witnesses.
    Senator Boxer. Thank you, Senator, very much.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair. I am anxious to hear 
from the witnesses, so I will yield my time back to the Chair. 
Thank you.
    Senator Boxer. Thank you very much.
    So, we have a distinguished panel before us. The Honorable 
Peter Silva, Assistant Administrator for Water, Environmental 
Protection Agency, Hon. Cynthia Giles, Assistant Administrator 
for Enforcement and Compliance Assurance at the EPA, and 
Matthew Larsen, Associate Director for Water at the U.S. 
Geological Survey.
    So, we welcome you. And whatever order you prefer is fine 
with us. And we will hope, please keep your comments to 5 
minutes, and we will put your whole statement in the record.
    Who is going to go first?
    Mr. Silva. I will go first.
    Senator Boxer. All right. Mr. Silva.
    Mr. Silva. Thank you.

STATEMENT OF PETER S. SILVA, ASSISTANT ADMINISTRATOR FOR WATER, 
              U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Silva. Good morning, Madam Chair Boxer, Ranking Member 
Inhofe and members of the committee. I am Peter Silva, 
Assistant Administrator for EPA's Office of Water. Thank you 
for inviting me here to testify today.
    The safety of our drinking water is fundamental to EPA's 
mission. Every single day Americans drink water from a tap in 
their homes, workplaces and schools. They must be assured that 
the water they drink is safe.
    EPA and the States regulate more than 150,000 public water 
systems, and the vast majority of Americans served by them 
receive safe water. We recognize the continuing work ahead of 
us, and to make any real difference we must assist small 
communities and small systems, those serving less than 10,000 
people, because that is where 95 percent of all health based 
violations occur.
    These small systems, many of them serving disadvantaged and 
rural communities, face unique financial and operational 
challenges, partly because of their size. EPA and States have 
used a suite of tools that the Safe Drinking Water Act provides 
to help small communities maintain this capacity to provide 
safe drinking water, from the Drinking Water Safe Revolving 
Fund to technical assistance, including that provided by rural 
water associations and the rural community assistance 
partnerships. But we must do more.
    Implementation of the arsenic rule has highlighted the 
challenges associated with small system compliance. But it has 
also demonstrated funding and technical assistance options 
States and EPA have to make available.
    To boost compliance, State Drinking Water SRF programs and 
USDA's Rural Development Program prioritize funding for arsenic 
programs. We also invested some $30 million in research on cost 
effective technologies for small systems and provided training 
on treatment options. Last, we promoted the use of exemptions 
to give small systems more time to comply. Strong involvement 
of State staff has helped drive success.
    In order to refocus our efforts on small systems' achieving 
compliance, we have developed a new agency small systems 
approach. The three components of this plan are designed to 
facilitate use of Safe Drinking Water Act tools to achieve the 
greatest benefit and to provide States with active oversight, 
guidance and technical assistance.
    First, we will target Federal dollars to the small systems 
that need it most by promoting SRF financing and subsidies to 
achieve compliance and health protection. EPA will also work 
closely with USDA's small system funding program, RUS, to 
target grants and loans to high priority health issues.
    Second, we will work with States to strengthen Capacity 
Development Programs which will help systems maintain the 
technical, managerial and financial capacity to provide safe 
water.
    Finally, EPA recognizes that the most prudent way to help a 
small system provide safe water may be to help it choose one of 
many restructuring options ranging from informal cooperation 
with other systems to full ownership transfer or consolidation.
    Strong EPA and State program oversight depends on good 
data, and EPA is committed to improving the accuracy and 
availability of information on drinking water. With the States 
we will continue to identify and resolve problems that produced 
data discrepancies in the past.
    Administrator Jackson has made children's health a 
priority. States and EPA work with school water systems using 
all the tools we have including funding, technical assistance 
and enforcement. More than 90 percent of schools and child care 
centers are not Safe Drinking Water Act regulated water 
systems, but are served by a large community water system. Lead 
contamination resulting from corrosion in services and plumbing 
is a serious problem at some of these schools, and EPA has 
partnered with some other Federal agencies as well as education 
and public health groups to raise awareness among schools' 
officials and child care providers.
    Madam Chair, Administrator Jackson has noted that clean and 
safe water is the livelihood of healthy communities and healthy 
economies. I can assure you that EPA is committed to using all 
of its tools ranging from technical and financial assistance to 
enforcement and to working with our State partners to provide 
Americans with clean and safe drinking water every day.
    I look forward to working with the committee on this 
important issue and will be pleased to answer any questions you 
and the members of the committee may have.
    Thank you.
    [The prepared statement of Mr. Silva and Ms. Giles 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    



    Senator Boxer. Thank you, Mr. Silva.
    Ms. Giles.

  STATEMENT OF CYNTHIA J. GILES, ASSISTANT ADMINISTRATOR FOR 
   ENFORCEMENT AND COMPLIANCE ASSURANCE, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Giles. Thank you, Madam Chair, and other members of the 
committee.
    As EPA's Assistant Administrator for Enforcement and 
Compliance Assurance, I would like to highlight a few issues 
relating specifically to Federal and State governments' 
enforcement of the Safe Drinking Water Act requirements.
    I want to emphasize, as Assistant Administrator Silva did, 
that overall compliance with the Safe Drinking Water Act is 
quite high, and the vast majority of the American public 
receives clean and safe drinking water from our public water 
systems. However, we do have challenging, non-compliance 
problems that require attention, particularly in small systems 
and with new regulations.
    The Safe Drinking Water Act gives primary enforcement 
authority to the States. As the Act contemplated, almost all 
States have been authorized by EPA to assume primary 
responsibility for enforcement of the Act's requirements. EPA 
maintains a Federal oversight role and retains independent 
enforcement authority.
    States bring the vast majority of enforcement actions for 
drinking water violations. EPA has primary enforcement 
responsibility in one State without primacy, Wyoming, in the 
District of Columbia, in the U.S. Territories, and in Federal 
Indian country, except in the Navajo Nation. In addition, EPA 
has primary enforcement authority during the period when new 
Federal rules for particular contaminants have not yet been 
adopted by the States.
    Enforcement is just one tool but an important one for 
returning drinking water systems to compliance. To give you 
some idea of the numbers of enforcement actions, in 2008 the 
States and EPA brought a total of 5,875 enforcement actions for 
drinking water violations. Of these, the vast majority were 
brought by the States with EPA playing primarily an oversight 
role. This number does not include all the assistance and other 
actions taken to get systems back into compliance. Enforcement 
is taken when the other methods to return systems to compliance 
have not worked.
    Through a policy I issued today, EPA is taking action to 
improve enforcement of Safe Drinking Water Act requirements and 
deal more effectively with systems that have multiple and 
repeated violations. It prioritizes the most significant 
threats to public health so that systems with the most serious 
violations or repeated violations of health based standards 
will automatically rise to the top of the list for enforcement 
attention.
    We expect that this new enforcement strategy together with 
the small systems approach being implemented by the Office of 
Water will help us target the most significant drinking water 
problems and improve compliance with drinking water standards.
    EPA is committed to clean and safe drinking water and to 
working with the States to achieve compliance with the law.
    I would be happy to answer any questions the committee may 
have about enforcement of the Safe Drinking Water Act.
    [The responses of Ms. Giles to questions for the record 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    


    Senator Boxer. Thank you.
    Mr. Larsen.

 STATEMENT OF MATTHEW C. LARSEN, ASSOCIATE DIRECTOR FOR WATER, 
    U.S. GEOLOGICAL SURVEY, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Larsen. Madam Chairman and members of the committee, I 
appreciate the opportunity to appear before you to discuss the 
results of U.S. Geological Survey's studies of drinking water 
quality and related issues.
    I am Matthew Larsen, Associate Director for Water at the 
U.S. Geological Survey. The mission of the USGS is to provide 
reliable, impartial and timely scientific information. This 
information is used by resource managers and policymakers at 
the Federal, State and local levels to make sound, science 
based decisions.
    Assessment of water quality conditions and research on the 
transport and fate of pollutants in the hydrologic cycle are 
important parts of the USGS mission. For decades USGS studies 
of water quality have focused on the natural environment, 
streams and aquifers. Because of increased interest in 
potential human exposure to contaminants through drinking 
water, the USGS has increased its focus on studies of water 
quality in domestic wells, water quality of untreated water at 
the intakes of drinking water treatment facilities, often 
called source waters, and more recently water quality of 
treated drinking water, often called finished drinking water.
    In undertaking these studies, the USGS has also increased 
its coordination with other Federal agencies that have formal 
public health responsibility by sharing information and lending 
its expertise to the interpretation of linkages between 
environmental data and human exposure. These agencies include 
USEPA, the Center for Disease Control and Prevention, and 
others.
    Today, I will provide a brief overview of USGS activities 
organized in the following six categories: water quality of the 
Nation's streams and aquifers, source water quality, water 
quality of domestic wells, community drinking water quality, 
persistence of contaminants, and finally working with public 
health agencies and scientists.
    The USGS has provided scientific information on the quality 
of the Nation's streams and aquifers since the early 20th 
century. Much of these data are archived in USGS National Water 
Information System and are accessible via the Internet to the 
public. These data have been a valuable source of information 
on water quality conditions for drinking water managers. For 
example, a retrospective analysis of arsenic occurrence in 
thousands of wells across the Nation was used by the EPA in 
revising the arsenic drinking water quality standard in the 
year 2000.
    USGS studies of surface water quality have provided 
information on the occurrence of naturally occurring 
contaminants such as arsenic and radionuclides, synthetic 
organic chemicals used in industry, and many emerging 
contaminants, including pharmaceuticals and personal care 
products, in environmental waters that are direct sources of 
drinking water.
    About 43 million Americans get their drinking water from 
self-supplied sources, the vast majority from domestic wells. 
USGS studies of domestic wells have provided an archive of 
water quality data on approximately 10,000 privately owned 
drinking water wells.
    USGS studies of finished community drinking water quality 
are relatively new and very modest in comparison to our other 
water quality studies. Information on levels and mixtures of 
chemicals that persist after drinking water treatment is 
essential to inform Safe Drinking Water Act decisionmaking.
    The USGS also collaborates with public health scientists 
and agencies on local and regional studies of diseases that may 
be attributed to drinking water exposures. The USGS provides 
insights into the landscape and hydrogeologic factors that may 
affect human exposure to environmental contaminants in drinking 
water and lends its expertise to studies that explore linkages 
between chemicals in the environment and health outcomes.
    While in the past USGS studies have focused primarily on 
the quality of our streams, lakes and aquifers, there is now a 
significant need for information on the quality of source and 
finished drinking water and for understanding of the factors 
that affect that quality.
    USGS contributes to drinking water management and 
protection by providing information on unregulated and emerging 
environmental contaminants and by working closely with resource 
managers and regulators, community water supply system managers 
and the public to ensure that they have access to and an 
understanding of that information.
    Thank you, Madam Chairman and the committee, for the 
opportunity to present this testimony. I will be pleased to 
answer any questions you might have.
    [The prepared statement of Mr. Larsen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
    
    
    
    
    Senator Boxer. Thank you.
    I will start off with Administrator Silva. I am extremely 
concerned by recent press reports indicating that children may 
be drinking contaminated water in small rural schools that run 
their own drinking water systems. Now, you have stated in your 
opening statement that you do not have the authority to 
intervene in that situation. Is that correct?
    Mr. Silva. That is correct. We do not have any----
    Senator Boxer. Could you turn on the mic?
    Mr. Silva. No, that is correct. We do not have a direct 
authority over those kinds of systems. However, we do work with 
the States and communities to try to do a number of things, 
target funding, educational programs.
    Senator Boxer. Well, I am not interested in roundabout 
help. What do I have to do to make sure that you can get in 
there and clean up that water? Education is great, but I want 
action. So, what do we need to do to help you be able to 
intervene?
    Ms. Giles.
    Ms. Giles. Senator, the schools that supply their own 
drinking water which you are mentioning is about 10 percent of 
the schools nationally. As small systems, those systems are 
required to comply with the Safe Drinking Water Act, and it is 
a matter of particular attention to EPA because, as has been 
pointed out here, children are particularly vulnerable to 
contamination in drinking water systems.
    So, in addition to the assistance, both financial, 
technical and managerial assistance that the States and EPA 
provide to these systems, we, of course, also have enforcement 
possibilities for those drinking water systems. And where we 
cannot get a return to compliance through these various forms 
of assistance, enforcement is certainly an option.
    Senator Boxer. OK. So that is good news. So, you do not 
need any change in the law if you come to the conclusion that, 
after trying to help these systems in doing everything you can, 
they are still not complying? You can go into those rural 
schools and protect those children. Is that what you are 
saying?
    Ms. Giles. Like all small systems that are required to 
comply with the Safe Drinking Water Act, they are----
    Senator Boxer. Could you cite that area of the Act that 
gives you that authority to me now, and if not could you get it 
to me in writing?
    Ms. Giles. It is the General Enforcement Authority of the 
Act, so it is section 1413.
    Senator Boxer. OK. I just cannot imagine, I mean, Senator 
Klobuchar has made the point so well that children are the most 
vulnerable. Pregnant women, children, the elderly, the 
disabled, they are much more at risk.
    So, do you have anything to tell me that you intend to move 
on this, these news reports? Because I understand Senator 
Inhofe's point about, newspapers make a report, let us not just 
move on that. I agree with him. They may not be accurate. But 
they may be. And if they are, then we know that a lot of our 
rural schools are, kids are drinking contaminated water. So, 
has Administrator Jackson talked to you about moving on these?
    Ms. Giles. Absolutely, Senator. Protection of children's 
health is a high priority for this Administration. There are 
many supports that are available for these systems, and as 
Administrator Silva mentioned in his testimony, one of these 
principal ones is helping the smaller systems with 
restructuring where that is appropriate to move them off of 
their own supply into a supply that can be better managed. And 
I think that there are roughly 1,000 schools of these small 
supplies that have been moved off their own source of drinking 
water to a larger system over the last 5 years. And that is an 
effort that needs to continue.
    Senator Boxer. Well, let me follow that up, thank you, 
because I want to talk about children in larger schools. News 
reports also have found drinking water contamination in some 
schools that are part of a public drinking water system in 
urban areas. And one of the contaminants found is lead, which 
we know harms the development of the nervous system, and 
children, again, are especially at risk. And again I take to 
Senator Klobuchar--because our work on getting lead out of toys 
and stopping them from being used by our children, it does not 
help us if the lead is in the water.
    So, are State or local authorities monitoring drinking 
water quality for such contamination at schools that are part 
of larger water systems, and if not, will EPA develop a program 
that helps to locate and address these serious problems? It 
seems to me that when you do that you are really helping the 
whole community because if you are helping these larger 
schools, where they are part of the public drinking water 
system, and you go after those to protect the kids, you are 
protecting everybody who drinks water out of those systems.
    So, could you tell me what you are doing here? Are you 
monitoring, currently, the drinking water for such 
contamination at those schools that are part of larger public 
water systems? And what are your plans on that front?
    Mr. Silva. Well, right now we do not require separate 
monitoring for schools if they are part of a larger system. The 
larger system is required to test for lead and copper, the lead 
and copper rule, and if they have any issues, they have to 
report it and work with their consumers to resolve those 
issues. But right now, we do not have any direct monitoring 
requirements at schools.
    Senator Boxer. OK, let me make my point here. We know from 
reading these news stories, and they do seem to be very well 
documented, that the reports were made, but nothing has 
happened. In other words, everybody feels that yes, the water 
system, everybody said yes, there is more lead, there is more 
this, there is more that, but no follow up.
    What are you doing now, in light of the past 8 years where 
not much was done as far as I can tell? What are you doing now? 
And if you are not monitoring these schools, you are monitoring 
these larger water systems. What action are you taking on these 
larger water systems that service the schools?
    Ms. Giles. Senator, if I could respond. The larger systems 
are required to monitor for contaminants that are regulated in 
the Safe Drinking Water Act and those standards are set, 
certainly with children in mind. So, the new enforcement 
approach that we announced today is intended to target the 
violations that we find in these larger, as well as the smaller 
systems----
    Senator Boxer. Say it again for us, your new enforcement. 
Explain what you are doing.
    Ms. Giles. The new enforcement approach, Senator, is a new 
way of targeting and requiring enforcement response from all 
Safe Drinking Water Act systems. The concept of it is to make 
sure that the most serious violations rise to the top of the 
list for prompt enforcement action. So, what we are doing is 
implementing a targeting system that will identify the health 
threats where there is a violation of health based standards, 
and especially where there have been repeated violations at a 
system, and put those to the top of the list for enforcement 
attention.
    Senator Boxer. And when are you going to take your first 
enforcement moves?
    Ms. Giles. Excuse me?
    Senator Boxer. When are you going to move? When are you 
going to move on this? We already know this----
    Ms. Giles. January. It is being implemented, it is being 
issued today and it is being implemented----
    Senator Boxer. And you are going to move on enforcement in 
January?
    Ms. Giles. Well, the enforcement approach, we are moving on 
some enforcement cases now. But the enforcement approach is a 
way of targeting our enforcement resources, both at the State 
and the Federal level----
    Senator Boxer. There is a lot of bureaucratic talk here. 
What I just would like to close with--and I am sorry for taking 
an extra couple of minutes, and I will be happy to grant that 
to my colleague over here. We already know kids are being 
exposed to these contaminants, and they are deadly, and we 
already know there are problems. And what Mr. Silva said, and I 
appreciate his honesty, is we are not really tracking schools, 
we are tracking the public systems, and we do not know which 
public systems serve the schools.
    We need a lot--I need a lot more specificity from you. I do 
not--I am not confident that we are now ready to go. So, I 
would urge you to speak with Administrator Jackson. I know she 
is often doing very important work, and we will talk to her, of 
course. But, what I am getting from you is, well, we have this 
new plan. And I say we need enforcement now. And it just sounds 
like it is a plan, and it is going into effect in January and 
when will it be done and when.
    So, I expect to see some enforcement and I hope that you 
will--I do not mean to put you on the spot to identify systems, 
but I am going to need in writing, after this hearing, what are 
you concerned about, where are you moving, and I am just very 
worried about our kids and their safety.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman. I will not need 
additional time.
    You mentioned something in your opening statement, Ms. 
Giles, with the exception of--and you named some--you named 
Wyoming. What is the situation there where they would have 
primary as opposed to--just out of curiosity?
    Ms. Giles. The Safe Drinking Water Act is established to 
allow States to assume primary authority for implementation and 
enforcement of the Act, and all of the States have been given 
that authority with the exception of Wyoming. So, in Wyoming 
EPA is the primary----
    Senator Inhofe. Well, yes, that is what you had said. But I 
am asking why. Why Wyoming?
    Ms. Giles. I am sorry, Senator, I do not know the reason 
why Wyoming did not----
    Senator Inhofe. Well, would you find out for the record? I 
am just curious. It is not very important.
    To both Mr. Silva and Administrator Giles, this was set up, 
the EPA and the States created a Federal-State partnership to 
clean up the water. And I like that. My concern is, and I am 
anxious to get to the second panel so that we can hear from 
some of the people, including Gene Whatley from Oklahoma, is 
that, I spend a lot of time around the States. We are the small 
communities that we are talking about. That is what Oklahoma 
is. And one of the reasons I originally came here, with my 
experience and my background, was being concerned about 
unfitted mandates.
    So, I am concerned about the--what specifically, the 
emphasis in the Federal responsibilities for water--what 
specifically are you doing to empower States to meet their 
goals under this Act? Both of you. You have two, kind of, I 
see, competing things. I am not in total agreement with the 
Chairman on enforcement. I am more concerned about compliance 
assistance. So, tell me what you are doing now to help these 
small systems that we are talking about.
    Mr. Silva. I am sorry, with the school systems?
    Senator Inhofe. Yes, all small systems.
    Mr. Silva. Yes, small systems. Well, again, we--that is 
something that we are going to target. We are developing what 
we call a new small systems program. Again, it is a three 
pronged approach where we are going to work with the States on 
better targeting the SRF programs that they have to small 
communities. We are going to work directly with the communities 
in some manner in terms of providing technical assistance to 
build up their institutional capacity, their financial 
capacity.
    Also, we are going to try to work with the partners, the 
Rural Assistance Program, for example, where we have, for 
example, circuit riders that can help small communities 
directly. So, those are----
    Senator Inhofe. OK. Circuit riders, those are people that 
actually get out there and get dirty and----
    Mr. Silva. Exactly. For example, if there are a number of 
small systems that are close by, instead of trying to build one 
big system, they can use one operator for, let us say, three 
systems, instead of having one operator where communities 
cannot afford one operator. That is one of the ideas----
    Senator Inhofe. That is good.
    And Ms. Giles, you have, I guess in your jurisdiction, the 
compliance assistance teams. Is that correct?
    Ms. Giles. Yes, EPA does provide compliance assistance. But 
as I mentioned before, the States really do the bulk of the 
compliance assistance as part of their primacy 
responsibilities, although EPA is certainly there to support 
the States----
    Senator Inhofe. I was going to say because a lot of times 
the States do not have the resources and the background and 
expertise to do this. That is how I see the assistance. Not 
that the Federal Government is coming in to take something 
over, but to actually assist.
    We have small communities. We do not have all the expertise 
and the engineers and people who can make analysis. And they 
cannot afford, in most cases, to have studies done. And that is 
where I see your role as being a very significant role. And 
that does take staff to do that. And so if you feel that you do 
not have that, that ability, those resources to do that, you 
let me know. I would appreciate it.
    That is primarily what I have, Madam Chairman.
    Senator Boxer. Thank you.
    Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    Mr. Silva, do you think that bottled water manufacturers 
ought to be required to give the public some detailed 
information such as source, what the source of the water is and 
the level of contaminants?
    Mr. Silva. Yes, Senator. Well, under the Safe Drinking 
Water Act we provide, we require all of our drinking systems to 
provide information to their consumers on a yearly basis. And 
additionally, if they have violations, they have to report 
that----
    Senator Lautenberg. Yes, but you do not----
    Ms. Silva. We do not regulate right now, but I mean, it 
makes sense to me that just for, if nothing else, for 
transparency and openness, to me it would make sense for that 
to happen.
    Senator Lautenberg. OK.
    Ms. Giles, an investigation by the New York Times found 
that fewer than 6 percent of the polluters have been punished 
for violations. What would your new enforcement policies do 
to--that the States must carry out with their enforcement 
responsibilities under the Safe Drinking Water Act?
    Ms. Giles. Thank you, Senator, and thank you for that 
question. I think I was not clear about the enforcement plan, 
and I would like to be clear about that. It is not a plan to 
consider enforcement. It is the mechanism that requires that we 
take enforcement with respect to the facilities that are not in 
compliance with the requirements.
    It is a way of prioritizing which enforcement should be 
taken first. And what it says is we should focus on systems 
that are not in compliance with health based standards, 
especially where there have been repeated violations, and 
specifically says that we should pay special attention to 
schools because, of course, exposure of children to drinking 
water is----
    Senator Lautenberg. Yes, the vulnerability of the young----
    Ms. Giles. Yes----
    Senator Lautenberg [continuing]. Ought to get priority 
attention. There is no doubt.
    Mr. Larsen, hydrologic fracturing, I am sure you know what 
that is, involves the underground injection of chemicals to 
extract natural gas. Now, this practice is beginning to occur 
in areas in New Jersey, and the drinking water that is provided 
should get attention. But EPA is severely limited in its 
ability to regulate this activity.
    Should EPA have the authority to investigate the health 
risks of this process that is now becoming rather common across 
the country? And would that protect our people from risks?
    Mr. Larsen. I can comment on some of the science behind it. 
I do not normally recommend policy for the EPA. But certainly 
it is a growing concern in Pennsylvania and New Jersey and 
other parts of the country as water is injected deep 
underground to fracture rock under pressure and then liberate 
gases and petrochemicals. There are water quality issues 
associated with it as that water is returned to the surface or 
to groundwater, and the USGS is involved in a number of studies 
in different States to help understand and define what those 
water quality issues are. We share those data with the EPA so 
that they can then make determinations about what actions to 
take.
    Senator Lautenberg. Mr. Silva, do you have any view of 
that, and what kind of risks are presenting as a result of this 
process?
    Mr. Silva. Well, right, we have heard the concerns, and we 
understand there are two primary issues. One is the wastewater 
that has gone of the out of the system and is put in reservoirs 
on the ground. The other is when you do the fracturing, there 
are some kinds of chemicals that are used for the fracturing 
process, and the science is not clear whether that poses risk 
to ground, especially to potable drinking water sources if they 
are there.
    So, we are concerned about it. We understand the issue. And 
we have been asked to start looking at that. It just requires, 
we are not sure about the funding for that. It probably would 
take----
    Senator Lautenberg. I think, as the Chairman said, that 
action in these situations is a requirement, and when we see 
something that is growing in popularity as a process, I think 
it suggests that we ought to get after it.
    I wanted to ask you this. Scientists have reported 
disturbingly high numbers of fish with both male and female 
characteristics and other reproductive problems. The problems 
have been linked to exposure to pharmaceuticals and other 
chemicals in the water. What is EPA doing to address this 
problem, or do they register any concerns?
    Mr. Silva. No, certainly, again, that is another area where 
we are not clear about the threats, although we understand the 
issues and----
    Senator Lautenberg. Well, but we see a result that is, I 
think disturbing, rather alarming.
    Mr. Silva. We do have what we call a list of contaminants 
that we do every 6 years, so we are taking a look at that.
    Senator Lautenberg. Thank you, Madam Chairman.
    Senator Boxer. Thank you very much, Senator.
    Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chairman.
    The first question I have of you, Mr. Silva, is a practical 
question about the Recovery Act. I talked about how important 
that is, the funding nationwide. A number of the water 
infrastructure projects have been held in abeyance for, I 
think, some legal issues. Can you provide an update on EPA's 
effort to get the shovels in the ground on these shovel ready 
projects? I have been hearing from the people in my State, I 
visit every county every year, so I hear a lot about the rural 
water projects.
    Ms. Silva. No, no, I can tell you that it is a highest 
priority in the agency to get the money out and to help States, 
and through the States and communities to make sure this money 
is spent. Right now, as of right now, we have 842 agreements 
under the Safe Drinking Water Act part of it, the $2 billion, 
so about half of the money, about 60 percent, is now available 
for projects. Of that total, about 33 percent are now under 
contract. So, we are doing well.
    I mean, our concern is that, as you know, under the 
authority, we have to have that money spent by February 17th of 
next year. So, we are concerned about that and we are working 
with States.
    Senator Klobuchar. OK. Well, we----
    Mr. Silva. We sent some support to New Mexico recently to a 
small community to help them with their project.
    Senator Klobuchar. All right. Well, we will work with you 
on these specific projects to see what is happening.
    The other thing I thought was interesting is that you were 
talking about how so many of the issues arise from small 
communities with less than 10,000 people because, I think, the 
problem is they do not have the financing to do this.
    In Minnesota, we maintain a county well index, which is a 
computerized data base that contains basic information for over 
300,000 water wells that have been drilled. The data is derived 
from water well contractors' logs of geologic materials 
encountered during drilling. Is there data about water quality 
from private wells that are predominantly found in rural parts 
of our country?
    Mr. Silva. Well, unfortunately, that is, one of the 
dilemmas is that we do not have any authority, and the States a 
lot of time do not have the authority also to control draft of 
private wells. And that is one of the issues that we have both 
with trying to ensure that all people have safe drinking water, 
because I think about 15 percent of the Nation uses private 
wells for their supply. So, unfortunately, it is an area that 
we do not have a lot of control of. All we can do there is 
work, again, with States on educational programs to make sure 
that, through the local counties perhaps, they provide 
information to their individual users.
    Senator Klobuchar. Thank you.
    I want to get back to my original opening, where I talked 
about the school data. And, as I mentioned, the Associated 
Press reported that over the last decade, unsafe levels of 
lead, pesticides and dozens of other toxins have surfaced at 
public and private schools in all 50 States.
    Just to give you one example, in 2001, 28 children at a 
Worthington, Minnesota, elementary school experienced severe 
stomach aches and nausea after drinking water tainted with lead 
and copper, which was the result of a poorly installed 
treatment system.
    What is being done now? Is there a new found focus over the 
previous Administration on the kids' drinking water?
    Ms. Giles. Senator, in addition to the measures that 
Administrator Silva testified about, the direction of the 
funds, technical assistance and assisting these smaller systems 
to connect to larger systems or otherwise improve their 
managerial capacity to handle these systems, we also are 
increasing our enforcement attention on these systems, 
especially where there has been, as you mentioned, health based 
concerns at these smaller systems and persistent non-compliance 
that these assistance mechanisms have not succeeded in getting 
resolved. We need to make sure that we get the attention that 
is needed to get these systems into compliance, and enforcement 
can be one of the tools to achieve that objective.
    Senator Klobuchar. Mr. Silva, did you want to add anything?
    Mr. Silva. Yes, I just wanted to let you know that we are 
also looking at updating our lead and copper rule, I think by 
2012. So, I think those kinds of things, I think we can look at 
how we could better work with schools in that aspect.
    Senator Klobuchar. Thank you. And then, a good thing. A few 
years ago, Minneapolis opened North America's largest 
ultrafiltration plant that produces drinking water for the 
residents of Minneapolis and surrounding suburbs. We actually, 
and somewhat facetiously, sell our bottled water, or city 
water, as the best water in the world.
    The plant was constructed to replace existing sand based 
filters that were installed in the early 20th century. This new 
drinking water facility aims to provide additional protections 
against pathogens such as cryptospiridium, did I say that 
right?
    Mr. Silva. Yes, you did.
    Senator Klobuchar. Excellent. And other chlorine-tolerant 
organisms. How many facilities are equipped with this kind of 
new filtration system like we have in Minneapolis? That was 
like one of those questions you get asked on 20 Questions. You 
can tell me later.
    Mr. Silva. Actually, not too many. It says here we only 
have about 5.5 percent.
    Senator Klobuchar. OK. I am impressed that you knew that. 
That was very good, Mr. Silva. But I think the idea here is, as 
we look at the funding for infrastructure projects, the more 
that we can do to use some of the new technology that is 
available, the more our cities and towns will be able to sell 
their city drinking water, the same as some of the expensive 
kind.
    So, thank you very much.
    Senator Boxer. Thank you very much.
    Senator Cardin followed by Senator Whitehouse, unless a 
Republican shows up.
    Senator Cardin. Well, Madam Chairperson, let me thank you 
very much for conducting this hearing. I would ask consent that 
my opening statement be made part of the record.
    Senator Boxer. Without objection.
    [The prepared statement of Senator Cardin follows:]
                 Statement of Hon. Benjamin L. Cardin, 
                U.S. Senator from the State of Maryland
    Madam Chairman, my highest priority as Chairman of the Water and 
Wildlife Subcommittee is to ensure that all Americans have clean and 
safe drinking water. Thank you for holding this important hearing on 
the safety of our drinking water.
    Water is an essential and precious resource that we all too often 
take for granted. Most Americans expect the water flowing from their 
faucets to be safe to cook with and to drink. In some jurisdictions 
that slight chlorinated smell leads people to think that their water 
has been treated and is safe.
    Unfortunately, chlorine and fluoride do not treat or remove all 
harmful substances including:
     Lead: which impairs children's mental development and is 
associated with behavioral problems has been present in tap water in 
cities like Baltimore and Washington, DC.
     Perchlorate: A jet and rocket fuel residue has been found in 
drinking water systems at high enough concentrations to disrupt normal 
human hormonal functions, and
     Nitrates: a common and costly pollutant found in the drinking 
water of many agricultural communities leads to a condition known as 
``blue baby syndrome'' where decreased oxygen carrying capacity of 
hemoglobin in babies leads to death.
    These pollutants are especially dangerous to vulnerable populations 
like infants, pregnant women and people with compromised immune 
systems. Treating these and other emerging pollutants in our drinking 
water is incredibly costly. The best way to keep them out of our water 
is to prevent them from getting in there in the first place.
            source water protection and green infrastructure
    Keeping pollutants out of our rivers, lakes and streams protects 
the water we drink. Restoring Clean Water Act protections of source 
water streams and wetlands that filter harmful pollutants from our 
water helps ensure the safety of our drinking water.
    This October, EPA released a report indicating that because of two 
Supreme Court decisions, 117 million Americans' drinking water is 
supplied by smaller streams which no longer fall under the Clean Water 
Act.
    Maintaining upland forests and natural systems is key to protecting 
in stream water quality and to reducing the burden on drinking water 
facilities downstream.
    New York City has recently done exactly that. Its outstanding, non-
chemically treated drinking water comes straight from the Catskill 
Mountains. To protect this drinking water source, New York recently 
decided to spend $100 million to protect the 19 upland reservoirs and 3 
controlled lakes.
    The city decided that conserving the natural landscape was more 
cost-effective than spending billions of dollars it would take to treat 
the city's water supply.
                        repairing infrastructure
    Some of the issues surrounding emerging contaminants, particularly 
lead, can be dealt with proper maintenance of water systems. The 
American Society of Civil Engineers estimates the cost of the 
maintenance backlog for America's drinking water infrastructure 
somewhere around $255 billion.
    Drinking water systems provide a critical public health function 
and are essential to life, economic development, and growth. Failing 
systems hinder disaster response and recovery efforts, expose the 
public to water-borne contaminants, and cause damage to roadways, 
homes, and other infrastructure, endangering lives and resulting in 
billions of dollars in losses.
    Maryland is all too familiar with these losses as we have suffered 
serious infrastructure failures in the last year on River Road in 
Bethesda and in the town of Dundalk outside of Baltimore.
    Safe and secure water supplies and healthy drinking water start 
with a functional and modern water infrastructure system. The Nation's 
drinking water systems face staggering public investment needs over the 
next 20 years.
    Although America spends billions on infrastructure each year, 
drinking water systems face an annual shortfall of at least $11 billion 
in funding needed to replace aging facilities that are near the end of 
their useful life and to comply with existing and future Federal water 
regulations.
    Federal assistance has not kept pace with demand, however. Between 
fiscal year 1997 and fiscal year 2008, Congress appropriated 
approximately $9.5 billion for the SRF. This 11-year total is only 
slightly more than the annual capital investment gap for each of those 
years as calculated by the EPA in 2002.
            maryland and regional water contamination issues
    Lead in Baltimore: In Maryland these maintenance issues are the 
root of serious contamination issues that have gone unaddressed for 
years.
    The presence of lead in Baltimore City schools' drinking fountains 
was first documented in the early 1990s. The source of the 
contamination was believed to be old pipes within the school buildings. 
At the time school officials said sinks and fountains with unsafe lead 
levels would be turned off, and water coolers similar to those in many 
offices would replace them.
    In 2003, however, the city's health commissioner ordered water 
fountains turned off at more than 100 schools because of reports that 
drinking fountains in scores of city schools were dispensing lead 
tainted water, more than a decade after the fountains had been ordered 
shut off.
    Sadly, in 2007 the school system determined that it would be more 
cost-effective to provide bottled water indefinitely, rather than 
retrofitting and monitoring the existing plumbing in school buildings.
                   intersex fish and pharmaceuticals
    Recent studies by the U.S. Geological Survey (USGS) have found that 
a large percentage of fish in the Potomac and its tributaries are 
intersex--meaning they have both male and female characteristics within 
the same fish. The most densely populated, heavily farmed study area in 
the Potomac experienced a 75 percent intersex fish rate while less 
habited sites had 14-35 percent rates. What human populations are 
flushing and dumping into the river is causing these mutations in the 
fish.
    The occurrence of intersex fish has been associated with known or 
suspected endocrine disrupting compounds which are not removed during 
standard sewage treatment and in runoff from farming operations. These 
compounds can include estrogen from birth control pills and hormone 
replacements, pesticides and fertilizers used on crops, and hormones 
from livestock operations.
    According to Dr. John Peterson Myers, chief scientist for 
Environmental Health Sciences of Charlottesville, Virginia, ``Endocrine 
disrupting compounds are major pollutants in the Potomac watershed, and 
we need to exercise the utmost caution when introducing these compounds 
into our rivers, streams, and ultimately our drinking water.''
    The Potomac River is Maryland's largest drinking water source. 
These fish are equivalent to the canaries in the mine. Like the 
canaries that signal contaminants in the air miners breathe, these 
mutant fish alert us to the contaminants in the water we drink.
    We've got to do better. Madam Chairman, I look forward to hearing 
from our witnesses today on how we will begin to do that.

    Senator Cardin. I have the honor of chairing the Water and 
Wildlife Subcommittee on this committee, and I can tell you 
that one of our highest priorities is to make sure that 
Americans who expect, when they turn on their faucets and pour 
out a glass of water, that it is safe to drink. We need to do a 
better job to make sure that we are carrying out that 
responsibility.
    Let me just cite some Maryland concerns which--my 
colleagues have brought up things in their own individual 
States, which I think points out our concern.
    We talk about our children in our schools. Well, in the 
1990s, Baltimore City schools were identified as not having 
safe drinking water for their students in the schools because 
of high levels of lead. That was in the 1990s. And the coolers 
were turned off, the faucets were turned off, and to this date 
they have not been turned on. We are using bottled water in the 
Baltimore City school system because of the high cost of 
retrofitting the piping system in the Baltimore City schools.
    And then I have cited, Madam Chair, several times the 
concerns of failures of pipes in Maryland, when River Road in 
Montgomery County became a river, or when the Dundalk community 
in Baltimore was flooded because of the break of water systems.
    And Madam Chair, I think that is our responsibility. I must 
tell you that. You have, and I have authored, along with the 
Republicans, legislation, the Water Infrastructure Financing 
Act, to try to deal with the deficiencies in Federal funds for 
water infrastructure. I think it has been estimated to be about 
$11 billion a year, the shortfall. And I think we have a 
responsibility to do a better job in providing those resources 
to improve the water infrastructure for safe drinking water in 
America.
    But let me just say one more example which really follows 
up on Senator Lautenberg's point, and that is the intersex 
fish, 75 percent rate in the Potomac River, the largest source 
of drinking water in my State. Perhaps this water came from 
there. I do not know. But I am not satisfied with the answer, 
Mr. Silva, that you gave on the intersex issue.
    To me, it is like the canary that dies in a mine shaft. 
When it dies, I know that there is a concern about humans going 
into that area. When fish become intersex, that means having 
characteristics of both male and female, it is a clear 
indication that there are too many hormones or estrogen-laden 
drugs that are being put into our water system that are not 
being cleansed, or too much fertilizer is being used by our 
farmers that are getting into the water.
    And there it is not, to me, so much the infrastructure, it 
is the pollutants that are getting into the water. And there is 
it your responsibility, the regulatory system, to make sure 
that we have the proper regulations and enforcement in place to 
keep these pollutants out of the water in the first place.
    So, I think we do need to work together. Congress needs to 
provide the resources for improving and upgrading our 
infrastructure so we can transport clean water more efficiently 
so that when you turn on your tap, you do not have lead in it. 
But also we need to make sure that we keep pollutants out of 
the water that are causing concern.
    So, I would just urge a more aggressive plan, at first 
understanding the science, but also keeping these pollutants 
out of our water. And I heard you respond to the Chairman's 
question. I just think that we need to be more aggressive about 
this. I welcome your thoughts.
    Mr. Silva, let me start with you, because as the intersex 
fish----
    Mr. Silva. No, I think, I think you are raising a number of 
excellent points in terms of the number of challenges that we 
have from nutrient pollution, non-point source pollution, to 
contaminants of concern, pharmaceuticals specifically. And so I 
think the communities now are facing a number of challenges 
that ultimately are going to end up in some way probably in 
more extensive treatment at the treatment plants.
    And so we have to be very, very clear about the standards 
that we set, what kind of standards we set for the communities, 
because it is going to be more costs for them for the point 
source. It also could involve things like education, to avoid 
putting things into the system. Source reduction, for example, 
is one that does not cost a lot of money, is more educational, 
getting the citizens involved.
    So, I think what I am saying is that it is a multi-faceted 
issue that is going to require a multi-faceted approach. And 
certainly funding is going to be one critical thing, as I 
mentioned, because once we get into this, I think as we find 
more contaminants of concern, they may require more standards 
and more regulation.
    Senator Cardin. Well, I agree that it is multi-faceted. I 
think education is critically important. But I also think 
enforcement is going to be an important role here.
    Thank you, Madam Chair.
    Senator Boxer. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thank you very much.
    Could each of you give me your views on the extent to which 
the drinking water contamination problem relates to 
infrastructure failure?
    Mr. Silva. I am not sure I understand that question. Are 
you talking about infrastructure failure in terms of not having 
enough infrastructure or the existing not working----
    Senator Whitehouse. The existing not working.
    Mr. Silva. I would say overall, nationwide, I do not think 
that is a major issue at this point. I mean, I think in some 
areas it is a concern, especially, again, where you have older 
infrastructure----
    Senator Whitehouse. What percent, would you say?
    Mr. Silva. Senator, I could not give you that off the top 
of my head. Again, I do not think it, in terms of the pollution 
problems that we have, I do not think that is a major one. I 
know, for example though, that in CSOs, combined sewer issues, 
there you have a big need throughout the country, especially in 
large communities that require large investment. So, in that 
case, it is not really a lack of old infrastructure, it is just 
that they do not have it in place.
    I think the ARRA funds have really addressed some of the 
aging infrastructure issues, such as old pipes and upgrades----
    Senator Whitehouse. Well, what I am getting at is that I 
think EPA has identified $662 billion in decrepit 
infrastructure.
    Mr. Silva. Right. Right.
    Senator Whitehouse. ARRA gave out six, less than 1 percent, 
so I am not very excited by what ARRA contributed to the 
solution if, in fact, the EPA is correct that it is $662 
billion. So, I do not find your answer very reassuring, if that 
is what you are relying on.
    Mr. Silva. Well, no, I mean, what I am saying is that I do 
not think that is a big issue right now. But again, if we do 
not start investing more in the near future and the long term, 
I think there will be more issue with pollution from point 
sources.
    Senator Whitehouse. Ms. Giles.
    Ms. Giles. Thank you, Senator. As you correctly point out, 
there is a big infrastructure concern, both on the drinking 
water and on the wastewater side, of the capacity of the 
systems that attempt to deliver clean water to meet their 
obligations.
    In addition to the physical infrastructure, though, that 
you have mentioned here, there are also other aspects of 
infrastructure, the capacity of the systems to operate and 
maintain their systems and to have not only the financial 
wherewithal to do that but the managerial and administrative 
capacity to do that.
    And that is something--so on both aspects that is something 
that is an important priority to EPA, both the physical and the 
other aspects of infrastructure that help us to deliver clean 
and safe water.
    Senator Whitehouse. Mr. Larsen.
    Mr. Larsen. I would only add that, well, first of all, the 
USGS as a science provider does not normally deal with this 
side of the question. But I would add that one of the big 
challenges in addition to dealing with the decaying 
infrastructure, whether it be pipes and sewage treatment plants 
or bridges or whatever, is the fact that as the new science 
emerges on different contaminants, and the topic we were just 
talking about, estrogen-active chemicals in water, our existing 
sewage treatment facilities were never designed to deal with 
the concentrations in low levels of the types of contaminants 
we are talking about. And we do not really know yet, in terms 
of the science, whether we need to retrofit, whether or to what 
degree we need to upgrade those kinds of facilities. This is 
still an emerging question.
    So, in addition to repairing our aging infrastructure, we 
also have a large challenge which is to examine to what degree 
we may need to revise our treatment methodologies to deal with 
these very low concentrations as we have acknowledged. In fact, 
we do not really know to what degree they may affect humans and 
to what degree we need to respond.
    Senator Whitehouse. Well, I would, the news today reports 
that the President looks at highways, small business and jobs 
plan, is the headline. I would ask that within the 
Administration you use whatever efforts you have to try to 
assure that water and wastewater infrastructure are included in 
the jobs plan.
    I think that the infrastructure failure in water and 
wastewater is considerably worse than Mr. Silva has suggested. 
I think it is your own number, that it is $662 billion that we 
are behind in this coming, whatever it was, 6 or 7 years, and 
it is very sad for me, representing Rhode Island, where, Ms. 
Giles, you come from, and which has a near 13 percent 
unemployment rate, to see decrepit infrastructure and 
unemployed people, side by side, and we have not yet connected 
those two obvious dots.
    And I know that there are concerns about the deficit, but 
by God, if the stuff is going to have to be fixed sooner or 
later anyway, it really is not a deficit problem to move it 
forward and get it done now while we need the jobs.
    So, I would hope that you would urge internally for water 
and wastewater infrastructure to be part of the jobs program 
through EPA into the Administration's counsels.
    Senator Boxer. Thank you, Senator.
    We are going to do a second round of 4 minutes each.
    Mr. Silva, I want to back up what Senator Whitehouse said. 
Here is the EPA's own document. Drinking water infrastructure 
needs $334 billion over 20 years, and most of it is because of 
repair or replacement. So, there is a lot of deteriorating 
infrastructure, and that is why, again, the bill we passed out 
of here is a strong start. And we need to move forward.
    So, I have a couple of questions more. Assistant 
Administrator Silva, I have long called for EPA to use the best 
available science to make a decision on regulating perchlorate, 
which is rocket fuel, is found in rocket fuel, in drinking 
water in a lot of States, including mine. What is the time line 
for EPA to make a decision on regulating perchlorate in 
drinking water supplies, the time line?
    Mr. Silva. Well, there are a couple of steps. First, we 
have to study the science to see if we first need to regulate. 
We are looking at that right now. We feel that we can do that 
probably by the middle of next year sometime, to decide whether 
we are going to regulate or not, and then get into the science 
of what kind of standards we need to set----
    Senator Boxer. So, in 6 months you will let us know whether 
or not you think it ought to be regulated? That would be the 
middle of next year. Correct?
    Mr. Silva. Well, I can back to you with a date certain----
    Senator Boxer. Would you really put it in writing, please?
    Mr. Silva. Yes, I can do that.
    Senator Boxer. Because a lot of work has been done. My 
State has already set a standard. So, you do not have to start 
from square one. We know the impact on pregnant women. We know 
the impact on our people. So, please, I am going to look at 
that and I would like that in writing.
    Let us see. On arsenic and radionuclides, Assistant 
Administrator Silva, what more can EPA do to help small water 
systems meet the health based standards that EPA has set 
already for arsenic and radioactive contaminants? What more can 
you do to help small water systems?
    Mr. Silva. Well, as I mentioned earlier, we have a number 
of approaches. But I do want to say that, make a comment, that 
we have made a lot of progress. When this rule was set up for 
arsenic at 10 parts per billion, we had about 4,000 systems out 
of compliance. We have been able to pull that down to about 
1,000. And of those, 20 are large and the rest are small. So, 
you can see again that the issue is really with small 
communities.
    And again, our focus is to get funding to those communities 
and technical assistance to make sure that they can meet those 
standards. I do want to say that we also have, through the $30 
million in investment in technology research, we do feel that 
there is affordable technology for small communities.
    Senator Boxer. So, just to go over that again. I asked you 
what more can EPA do to help small water systems, and you are 
saying get them the funding they need. And where do you stand 
on that funding?
    Mr. Silva. Well, right now, again the----
    Senator Boxer. What do you need?
    Mr. Silva. Well, right now we need more funding focused to 
small communities. And again, we are working with the States 
because they do have already the authority to use what is 
called set asides for small communities. We also want to 
encourage those States to use more of that authority for small 
communities. In the ARRA funding, we were also able to use what 
was called buy downs, or, essentially grants for small 
communities, and continue----
    Senator Boxer. Well, let me just press you, because this is 
good information. You are saying there is a set aside that the 
States have to follow, they have to follow. Are they following 
it?
    Mr. Silva. It is voluntary at this point.
    Senator Boxer. It is voluntary?
    Mr. Silva. But it is a 2 percent set aside, or they can go 
higher if they like. So, again, we are going to try to work----
    Senator Boxer. So, could you get us a report on which 
States are doing that and which States are not?
    Mr. Silva. Certainly.
    Senator Boxer. Because we worry, all of us, about our 
smaller systems, because they are the ones that just do not 
have the ability to move forward.
    Is EPA considering the recommendation from the Science 
Board on Drinking Water which suggests addressing the 
cumulative effects of chemicals and similar sources? Because we 
believe it is important to figure, as you look at the human 
health consequences, what has been the accumulation? So, what 
is the time line for making a decision on whether to increase 
the consideration of cumulative effects on drinking water 
contaminants?
    Mr. Silva. Well, right now we do not have a time line. We 
have just received the report and we are looking at it. Our 
research branch is----
    Senator Boxer. OK, if you could confer with Administrator 
Jackson and get back to us, in writing. That would be very 
good.
    You noted that ARRA started to fund some of these smaller 
systems, and that is correct, and I will ask unanimous consent 
to place in the record the investments in ARRA that went toward 
these smaller systems in my home State because I think it is 
important.
    But again, I want to see dates certain because these are 
problems that are impacting people every day. I do not want a 
situation that Senator Cardin has where you cannot--you have to 
drink out of bottled water. As Senator Lautenberg has said that 
is not the answer either because there are no standards for 
bottled water. I mean, it is the facts. And we need to deal 
with that as well.
    Senator Inhofe.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
    
   
    Senator Inhofe. I will take the 3 minutes I had remaining 
from the first round but not the second round. I am anxious to 
get to the second panel, Madam Chairman.
    I cannot remain silent after Senator Lautenberg's statement 
about hydraulic fracturing. I have something to say about that. 
But first I want to ask all three of you, in response, do any 
one of you know of one case of groundwater contamination that 
has resulted from hydraulic fracturing?
    Mr. Silva. Not that I am aware of, no.
    Senator Inhofe. Ms. Giles.
    Ms. Giles. I understand that there is some anecdotal 
evidence, but I do not know that it has been firmly----
    Senator Inhofe. So the answer is no, that you do not know 
of it. All right.
    Mr. Larsen.
    Mr. Larsen. I will have to respond in writing. I do not 
know of all of our studies on that topic.
    Senator Inhofe. Well, but you have already answered. You 
are not aware of. That is the question that I asked you.
    Here is the problem that we have. Senator Lautenberg 
referred to this as something that is new. This is not new. 
This has been around over 50 years. And we do approximately 
35,000 wells a year, nearly 1 million wells, without one 
documented case of groundwater contamination. I am concerned 
about this because I know for a fact that if you took away the 
ability, as all other countries do, of hydraulic fracturing, we 
are going to be much more dependent upon other countries for 
our ability to produce oil.
    Now, I want to repeat that one more time. There has never 
been a documented case in almost 1 million uses of that 
technology. The EPA did an extensive study of this back, prior 
to--it lasted a long period of time. They concluded in 2004 
that it does not warrant any further study. And I want to 
submit, for the record, a document that tells the history of 
hydraulic fracturing----
    Senator Boxer. Without objection. So ordered.
    Senator Inhofe. And I will reserve time in case I need it. 
I hope I do not.
    Senator Boxer. Sure.
    Senator Lautenberg.
    [The referenced information follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
    
    
    
    Senator Lautenberg. Thank you, Madam Chairman.
    Are you aware of any chemicals of concern in the hydraulic 
fracturing process?
    Ms. Giles. Senator, my understanding is that Congress has 
exempted hydraulic fracturing from the provisions of the Safe 
Drinking Water Act, so we do not----
    Senator Lautenberg. But my question goes beyond that. Is 
there any, do you have any information, has anybody looked at 
it to see whether there is any, there are any chemicals of 
concern used in the process?
    Mr. Silva. I would have to get back to you, Senator.
    Senator Lautenberg. I find it surprising, because we ought 
to certainly know that.
    Ms. Giles, I asked you before, what is being done to ensure 
that States carry out their responsibility for enforcement 
under the Safe Drinking Water Act? What is being done? You, 
before, said that you are, I think, reviewing it. Just tell me, 
is there anything being done? There is only 6 percent of the 
polluters that have been punished for water violations.
    Ms. Giles. Senator, the EPA does retain a State oversight 
responsibility for the States that have primacy under the Safe 
Drinking Water Act, and the enforcement approach that issued 
today is about how that oversight should be undertaken----
    Senator Lautenberg. That should be undertaken----
    Ms. Giles. Working with the States to identify the existing 
violations----
    Senator Lautenberg. Ms. Giles, I am sorry that we are 
missing one another here on this. But is there anything 
currently being done to make certain--or at least get some 
sense of what the States are doing to enforce it?
    Ms. Giles. There is a current oversight protocol which is 
what I am revising today. But the existing protocol is that 
States are required to report to EPA when there are violations 
of the Safe Drinking Water Act----
    Senator Lautenberg. But is anything--what I deduce is that 
you are saying no, in some terms. So, I am going to assume that 
little is being done.
    Ms. Giles. I think perhaps I am not being clear, Senator.
    Senator Lautenberg. Not for me. Perhaps for everybody else.
    Ms. Giles. The existing protocol is that when there is a 
violation at a drinking water system of a contaminant standard 
under the Safe Drinking Water Act, that there is required to be 
an escalating series of enforcement responses to try to return 
that system to compliance.
    What we are doing today is focusing that enforcement 
protocol so that instead of a contaminant by contaminant 
approach it is a system based approach so that we make sure we 
return the whole system to compliance and that we are holding 
ourselves and the States to a high standard for getting those 
systems into compliance.
    Senator Lautenberg. Would you argue with the fact that 
there are only a maximum 6 percent of the polluters that have 
been punished for water violations? Is that----
    Ms. Giles. I am not sure where that number comes from. 
Under the Safe Drinking----
    Senator Lautenberg. Frankly, it comes from the New York 
Times. They may not be the perfect monitor. But do you think 
there is a lot more progress than that?
    Ms. Giles. Well, under the Safe Drinking Water Act, we do, 
as I mentioned earlier, start with trying to provide compliance 
assistance and then----
    Senator Lautenberg. I know, but you are talking about 
process. I am talking about results. Forgive me, please.
    Ms. Giles. The important thing is whether the system 
returns to compliance. That is what is important. And that is 
what we are attempting to do here. The penalty provisions of 
the Safe Drinking Water Act are somewhat different from the 
provisions of other Federal environmental laws. And what they 
provide is that EPA has to, before it can take a penalty 
action, first issue an administrative order and only for 
violations of an administrative order can we assess----
    Senator Lautenberg. Thank you very much, Ms. Giles.
    Senator Boxer. Senator Klobuchar.
    Senator Klobuchar. Thank you very much, Madam Chair.
    Just to follow up on Senator Lautenberg's questions. I know 
that back in July, Ms. Giles, that Administrator Jackson 
directed you and Mr. Silva to work with the States or the 10 
regional offices of the EPA to work with them and with the 
States to have more transparency in the water quality 
enforcement. Could you talk about the status of those efforts?
    Ms. Giles. Certainly. Yes, in July, the Administrator 
directed me to work with Assistant Administrator Silva to 
develop a plan to improve our enforcement for the Clean Water 
Act Program, which is the discharges to surface waters of the 
United States. And, as you point out here, there is a 
connection, a direct connection, between that and safe drinking 
water because two-thirds of Americans do obtain their drinking 
water from surface water supplies.
    So, the current status is, as mentioned earlier, we have 
released data on what the compliance information we have is and 
how the government has responded. We are targeting the sources 
that have the most significant effects on clean water, 
including specifically where there is an affected drinking 
water system to make sure that we return those systems to 
compliance.
    And we have started work on a rule for electronic reporting 
of the discharge data so that we can improve both the 
transparency and the accuracy of the information. So, we are 
hard at work on making sure that we are targeting the most 
important work on the roughly 1 million sources that affect 
surface water quality.
    Senator Klobuchar. Very good. I have just always found that 
no matter what agency you are dealing with, or what level of 
government, that that transparency really can spur people to 
action, if that information gets out there.
    Then the second thing I wanted to get back to, Mr. Silva, 
is we have talked here about ways to get at this problem. One 
is clearly enforcement and transparency and openness to get out 
the problem. But the second is this infrastructure issue, 
because that is what I hear the most around my State. And I was 
surprised at your answer and maybe you want to go back and look 
at it just, I mean, I am going to give you just one example in 
the city of Oronico, which is just north of Rochester. They had 
a mix of old and newer housing with no municipal water or sewer 
system. In the older part of the town, septic systems on small 
lots were causing private well contamination for approximately 
100 households.
    With the help of the $1.3 million with the principal 
forgiveness that came from the Recovery Act, and some money 
from the Drinking Water State Revolving Loan Fund, this city, 
this town of Oronico, was able to build a municipal drinking 
water system to provide safe water. And I have just heard these 
kinds of needs from all over our State.
    So, I hope you will go back and look at that, because I 
think it is a combination of, as I said, of this enforcement, 
but also this declining infrastructure, particularly in these 
small towns that you have both identified as the ones that are 
having the most problems. They just simply cannot afford it. 
They have less than 10,000 people. And it is trying to help 
them, collecting data on their wells, which we have done well 
in our State, and then helping them to get the update 
infrastructure in place. OK?
    Thank you very much.
    Senator Boxer. Thank you, Senator.
    Senator Cardin, and then Senator Whitehouse.
    Senator Cardin. Thank you, Madam Chair.
    Ms. Giles, I want to get an update from you on how we are 
proceeding in regard to mercury and mercury in our waters. 
Mercury-laden seafood, the warnings go out all the time, and 
the amount of mercury load in our rivers is well above any 
recognized level of safety. Can you just give me--and I will 
talk a little specifically about some of the concerns in 
Maryland coming in from the Shenandoah. But where are as far as 
mercury?
    Ms. Giles. Well, Senator, I think that the principal source 
of mercury in surface waters comes from the air, and that is 
where rules are being considered by EPA now about control of 
mercury emissions from utilities, at least within the United 
States. So, it is a help to contribute to reducing the load of 
mercury in our waters, that is where we are looking.
    Senator Cardin. There is at least some evidence that the 
mercury coming in from plant activity is affecting Maryland 
waters, the Potomac. There is a long history of concerns about 
water that enters in through the South Fork Shenandoah River, 
dealing with industrial activities in Pennsylvania and in 
Virginia.
    Let me just give you one number that has been given to me, 
and maybe you want to counter that as not being accurate. About 
416 pounds of mercury get into the South River per year, and 
the mercury contamination stretches from Waynesboro for 125 
miles downstream to Front Royal, and that Virginia is 
considering developing the total maximum daily loads of not to 
exceed 4 pounds per year, which would be a 99 percent 
reduction. Are you saying all of that is from the air?
    Ms. Giles. Senator, I am not familiar with the specific 
circumstances of that one river that you are referring to. In 
addition to the air sources of contamination, there are, of 
course, some site-specific concerns, especially hazardous waste 
sites that might be cleaned up that could be sources of 
mercury, too. And the program does look at those. I can get 
back to you as to that specific river and let you know what 
those----
    Senator Cardin. Well, if you would get back with the 
specifics, I would appreciate that.
    I guess I share the Chairman's urgency here. Mercury 
contamination is a significant health care risk for people in 
our community, and the levels appear to be way too high. And 
there are warnings given out all the time about not eating 
certain seafood. I come from a State in which the seafood 
industry is critically important to our economy and to our way 
of life.
    Whether it is airborne or pollutant activities on 
industrial use or whatever, we need a game plan to deal with 
this. If it is air, and part of the problem clearly is 
airborne, we need that strategy, and this committee is working 
on it. I just wish there was a greater sense of urgency in some 
of these replies as to these issues.
    Ms. Giles. Well, Senator, I am sorry I am not familiar with 
those specific circumstances. But I would have to say I think 
this Administration does share your sense of urgency, that the 
need to address clean water, both in our rivers and from the 
tap, and we are--this is a top priority for this 
Administration, and that is why we have devoted some attention 
here to try to make sure that we beef up our enforcement 
actions as well as the other mechanisms that Administrator 
Silva has discussed.
    Senator Cardin. Thank you.
    Thank you, Madam Chair.
    Senator Boxer. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Madam Chair.
    The New York Times, which I think has been cited already 
today, reports that for over a quarter of water systems have 
violated the arsenic or radioactive standards, there is no 
record that they were ever contacted by a regulator, even after 
they sent in paperwork revealing those violations. Those 
figures are particularly worrisome, say researchers, because 
the Safe Drinking Water Act limits on arsenic are so weak to 
begin with. A system could deliver tap water that puts 
residents at a 1 in 600 risk of developing bladder cancer from 
arsenic and still comply with the law.
    I am not sure what the story means by 1 in 600 risk of 
developing bladder cancer. Does that mean that in a small 
community of 6,000 people, if water was delivered at that 
level, there would be 10 cases of bladder cancer? Is that what 
the 1 in 600 means?
    Mr. Silva. I am assuming so, although I am not an expert in 
those kinds of numbers. But I do not know whether USGS--are you 
familiar with that?
    Mr. Larsen. We do not really deal with risk assessment. 
That is how I would interpret it, based on what you just 
reported. But I would have to look more closely at the numbers 
to know the risk.
    Senator Whitehouse. Cynthia, Ms. Giles. We are both from 
Rhode Island, so we are on a first name basis outside the 
hearing, and I slipped into that.
    Ms. Giles. Senator, that was also my understanding, but I 
would also describe myself as not an expert in risk assessment. 
The violations of arsenic standards are of concern, and it is 
something that we have been working on, both on the compliance 
side and on the enforcement side. There have been a number of 
enforcement actions taken for systems in violation of the 
arsenic standards, and that is something that we are looking 
closely at. It is a particular challenge, of course, for the 
smaller systems.
    Senator Whitehouse. Yes. If that is the number, that is a 
little town of 6,000, 10 cases of bladder cases is a lot. In a 
medium-sized town of 60,000, that is 100 people stricken with 
bladder cancer. You get up to the size of the State of Rhode 
Island, you are talking about 1,500 people. That is a pretty 
high toll. Bladder cancer is a very serious cancer. So, I hope 
that will be part of the examination.
    Mr. Silva. And again, we feel we have made progress on the 
road to, hopefully, get to all the systems eventually.
    Senator Whitehouse. Thank you.
    Thank you, Madam Chair.
    Senator Boxer. Well, colleagues, we are going to end this 
first panel. But I just have to say we are looking forward to 
your specific responses.
    What I am going to take away from this is that we are going 
to know in 6 months if you are going to regulate perchlorate, 
we anticipate that you are going to take enforcement actions 
starting in January against these systems that have been out of 
compliance and are endangering our children, you are going to 
look at ways that you can be more involved in protecting our 
children in these small systems, and we are going to follow up, 
I am, at least, and any of my colleagues who have concerns, are 
going to follow up with a letter with specific points so that 
there is no confusion.
    You have a lot to time to make up for. But you have the 
information. The information is there. The New York Times piece 
is very clear. They are fair. They say, these systems reported 
that they were out of compliance on some of the most serious 
and dangerous chemicals and toxins. You have the information. 
You need to take the action.
    And I would say the vast majority of this committee, and I 
am not speaking for all, believe me, but the vast majority of 
this committee expects you to take action to protect our kids 
and our families. And anything less than that we will consider 
a stall. So, we expect action. Not just plans, not just good 
answers and ideas, but specific action, because these bad 
actors need to be called to account. And nothing helps more 
than that. I love the idea of electronic filing, but that is 
going to take time. You have the information in your 
possession. And so we expect action.
    And I thank you so much from the bottom of my heart for 
your being here, for your answering these tough questions. But 
this is a message to you from a lot of us that we want to see 
more. And we thank you very, very much.
    Senator Inhofe. Madam Chairman.
    Senator Boxer. Yes.
    Senator Inhofe. For the record, I would like to insert the 
one-page summary of the national study and final report of the 
EPA on hydraulic fracturing.
    Senator Boxer. Absolutely, it will be done.
    [The referenced information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
        
    Senator Boxer. We thank you again, and we will call up our 
second panel. Thanks again.
    We will call up Jerome Paulson, Professor, the George 
Washington University School of Public Health and Health 
Services, on behalf of the American Academy of Pediatrics; 
Michael Baker, President, Association of State Drinking Water 
Administrators; Gene Whatley, Executive Director, Oklahoma 
Rural Water Association.
    We need the panel to leave quietly, please, because we are 
inviting up our panelists.
    Gene Whatley, Executive Director, Oklahoma Rural Water 
Association, and Jeffrey Griffiths, Professor, Tufts 
University, Chair of the EPA Science Advisory Committee.
    And unless there is any other way you want to do it, I 
guess I will just simply start with the way it is explained to 
me here on this list, which would be Jerome Paulson first, 
Professor of the George Washington University School of Public 
Health on behalf of the American Academy of Pediatrics.
    Dr. Paulson.

  STATEMENT OF JEROME A. PAULSON, M.D., FAAP, PROFESSOR, THE 
GEORGE WASHINGTON SCHOOL OF PUBLIC HEALTH AND HEALTH SERVICES, 
        ON BEHALF OF THE AMERICAN ACADEMY OF PEDIATRICS

    Dr. Paulson. Good morning. Thank you for this opportunity 
to testify today before the Committee on Environment and Public 
Works regarding safe drinking water and children's health. My 
name is Dr. Jerome Paulson, and I am a proud representative of 
the American Academy of Pediatrics.
    The safety of our Nation's drinking water is of primary 
importance to child health. The general water supply is used 
for drinking, cooking, preparation of infant formula for 
children who are not breast fed, and bathing. Contamination of 
the water supply has obvious implications for children who may 
swallow, inhale or have skin contact with pollutants.
    As with many types of exposures, children are more 
vulnerable than adults to adverse effects from water 
contamination. Children drink more water per pound of body 
weight than do adults. Drinking water is consumed in a number 
of forms, as water, liquid used to reconstitute infant formula, 
reconstitute juice or other drinks, and in cooking.
    Household water supplies can lead to inhalation exposures 
if volatile substances or gases such as organic solvents or 
radon are present in the water and when water vapor from 
showering is inhaled. Contaminated bathing water can result in 
exposure by ingestion or dermal contact. Young children are 
particularly at risk because they swallow more water while 
bathing than do older children and adults. They are babies. 
What can you say?
    The effect of exposure on children's health may vary widely 
depending upon the nature of the pollutant, its concentration, 
duration of exposure and other factors. In general, however, 
their developing minds and bodies place children at 
disproportionate risk to toxins of any kind. Exposure during 
sensitive windows of development or periods of growth may have 
even more serious adverse health consequences. Because children 
live longer than adults, those outcomes which take years to 
manifest themselves have ample time to become apparent as the 
individual exposed as a child becomes an adult.
    Under the Safe Water Drinking Act of 1974, the EPA is 
responsible for setting national standards for both naturally 
occurring and human made contaminants that may be found in 
drinking water. EPA works in partnership with States and 
localities and water systems to monitor safety and ensure 
compliance.
    As is the case with many public health programs, however, 
costs and benefits of providing safe drinking water accrue to 
different parties. While water systems, schools or individual 
consumers bear the cost of installing, maintaining or upgrading 
systems, the financial benefits of those outlays are most often 
seen in other areas, such as lowered health care costs.
    Policymakers have the responsibility of balancing the many 
competing interests and assuring that public health and 
children's health are protected. My written testimony describes 
in greater detail the challenges associated with both public 
water supplies and private wells.
    Schools present a special challenge. Although a variety of 
pollutants may be present in school water supplies, the 
presence of lead has been the subject of specific attention 
from the media, Congress and EPA. In 1988, Congress passed the 
Lead Contamination Control Act in an attempt to reduce lead 
levels in drinking water in schools. The law requires 
monitoring of water in schools and replacement of fixtures if 
excess lead is found.
    The law contains two key weaknesses, however. First, it 
requires remediation to take place only after a problem is 
detected and after children may have been exposed rather than 
attempting to deal prospectively with the problem. Second, 
there are no enforcement provisions in the law. Compliance is 
voluntary and requires local and State government entities to 
cooperate in order for effective implementation to take effect.
    As with many other environmental hazards in schools, no one 
is really in charge in this situation. Therefore, it is not 
surprising that numerous reports in the press and medical 
literature have documented that lead continues to be found in 
drinking water in schools. Without enforcement authority, EPA 
is forced to rely upon voluntary programs such as the three 
Ts--training, testing and telling. While this is certainly a 
commendable effort its effectiveness is limited because the 
agency is unable to compel action in those cases where 
violations persist.
    Certain contaminants are known to pose specific health 
hazards for children. You will find in my written testimony a 
table that outlines some of the most common pollutants in 
drinking water and their health impacts on children. A handful 
of these pollutants merit special consideration due to their 
known hazards to children's health, including coliforms, lead, 
nitrates, volatile organic compounds, pesticides, and 
perchlorate.
    The American Academy of Pediatrics makes the following 
recommendations on maintaining and improving the safety of 
drinking water in the United States. Safe drinking water must 
continue to be a priority given the fundamental importance of 
water to human health. We must continue to prioritize drinking 
water safety among the activities at EPA and State and 
regulatory agencies.
    Federal regulators must increase oversight and technical 
assistance to State and localities. EPA Administrator Jackson 
has made welcome statements increasing the agency's activities 
on safe drinking water. But the agency must work effectively 
with State regulators and water systems to actually improve 
water safety. Serious and repeated violations should be 
identified and pursued aggressively.
    Congress should increase funding for EPA's efforts on clean 
water and safe drinking water. Schools and child care providers 
need more assistance in assuring the safety of their drinking 
water. Steps must be taken to establish clear lines of 
responsibility for testing school water supplies and correcting 
deficiencies. Communities should not wait until children are 
exposed or ill.
    More attention should be paid to the safety of private 
water supplies such as wells, and the EPA should increase 
funding for pediatric environmental health specialty units.
    Thank you, Madam Chairman.
    [The prepared statement of Dr. Paulson follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
   
    
    Senator Boxer. We will next turn to Michael Baker, 
President, Association of State Drinking Water Administrators.
    Welcome, sir.

STATEMENT OF MICHAEL G. BAKER, PRESIDENT, ASSOCIATION OF STATE 
                 DRINKING WATER ADMINISTRATORS

    Mr. Baker. Thank you, Madam Chairman, committee members.
    I can assure you that State drinking water programs take 
our responsibility of ensuring that public water systems comply 
with safe drinking water requirements extremely seriously. We 
recognize that the health and well-being of our citizens and 
our communities are dependent on their having access to 
adequate supplies of safe drinking water.
    Overall, our public water systems do a good job. In 
general, community systems do a better job than non-community 
systems, and larger systems tend to do a better job than 
smaller ones. One hundred percent compliance by all public 
water systems with all drinking water requirements continues to 
be our goal. Admittedly, achieving that goal is challenging.
    For instance, contaminants in our sources of drinking water 
such as nutrients associated with non-point sources of 
pollution continue to be a problem. The number and complexity 
of drinking water requirements continue to grow as does the 
technology required for meeting those requirements. New 
arsenic, disinfection byproduct and radionuclide rules have 
been a particular challenge due to the large number of small 
water systems and some large that have had to meet those more 
stringent standards for the first time.
    When a public water system does have violations, a variety 
of approaches can be used to return them to compliance. Those 
approaches can be taken with or without formal enforcement 
actions depending on the nature and severity of the violation. 
Bringing systems back into compliance is not easy, but it can 
be done. In Ohio, for example, we used a combination of 
outreach, technical assistance, financing, and when necessary 
enforcement to bring systems into compliance with the arsenic 
standard.
    In 2003, we had 153 systems that were exceeding the new 
standard. Today, we have 14 systems that are still exceeding 
the standard, and all but 2 of those are in some kind of 
enforcement action to return them to compliance.
    I will mention that States do support and actually help 
develop the revised approach for identifying and prioritizing 
significant non-compliers for enforcement, as mentioned by 
Administrator Giles. However, before enforcement comes into 
play the most reliable approach to ensuring compliance at 
public water systems is to enhance their overall technical, 
managerial and financial capacity. Reactive approaches after 
violations occur tend to be more expensive, more time consuming 
and less protective of public health.
    With that in mind and with the support of Senator Voinovich 
and Senator Brown, the Ohio EPA has been providing training to 
our local decisionmakers to make sure that they have the 
managerial and fiscal knowledge necessary to operate and 
maintain their public water systems. States do not support 
waiving standards or lowering the bar for systems due to 
financial challenges and thus allowing for two tiers of public 
health protection.
    Safe drinking water in schools is vitally important. States 
recognize that children are particularly sensitive to certain 
contaminants such as lead, and States have taken action to 
address drinking water compliance at our schools.
    Whether building capacity at the local level or conducting 
oversight and enforcement activities, to be successful States 
and public water systems have to have adequate resources. We 
commend Congress for increased funding for drinking water 
infrastructure through both the Recovery Act and the 2010 
appropriations.
    States also appreciate the efforts of this committee to 
reauthorize the SRF programs, and overall we support the 
proposed changes in that legislation. We particularly 
appreciate the increased funding but also the increased 
flexibility in the use of the set asides and the emphasis on 
increasing the capability of our public water systems.
    But without question, if we are going to improve drinking 
water compliance, State drinking water programs need more 
resources. And while not the direct purview of this committee, 
I do ask your support for increased funding for the State 
Public Water Supply Supervision Grant, which has been the 
primary source of Federal support for State drinking water 
programs.
    In summary, States take very seriously our ongoing 
challenge of ensuring public water systems comply with all 
requirements. In cooperation with our partners at the Federal, 
State and local level, we believe we have, given the 
challenges, a solid record of success. But we know collectively 
we can and need to do better.
    We appreciate Federal support for the SRF programs and this 
committee's particular efforts to support reauthorization of 
those programs. However, if we are going to fully recognize the 
public health protection goals that we all seek State drinking 
water programs need more resources to implement and enforce the 
Safe Drinking Water Act.
    Thank you for the opportunity to offer testimony, and I 
would be pleased to answer any questions.
    [The prepared statement of Mr. Baker follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
        
    Senator Boxer. Thank you so much.
    Now, we would go to Mr. Whatley, Executive Director, 
Oklahoma Rural Water Association.
    Welcome, sir.

 STATEMENT OF GENE WHATLEY, EXECUTIVE DIRECTOR, OKLAHOMA RURAL 
                       WATER ASSOCIATION

    Mr. Whatley. Chairman Boxer, Ranking Member Inhofe, and 
members of the committee, I appreciate very much the 
opportunity to be able to appear before the committee today.
    To begin, I would like to take this opportunity to thank my 
Senator from Oklahoma, Senator James Inhofe, for his efforts on 
behalf of sensible regulation of the environment and his 
efforts to protect the environment and his leadership in 
working for practical, reasonable and affordable drinking water 
regulations. Thank you very much, Senator.
    When I started to work with the association in 1978, EPA 
had developed regulation for seven or eight contaminants. 
During the past 30 years, the numbers of regulated contaminants 
has steadily increased to near 100 today. Each new regulation 
has a cost, whether it is for monitoring, additional personnel, 
increased treatment costs or infrastructure improvements. New 
requirements usually place additional costs on small systems 
with limited financial resources.
    Many of the EPA regulations, such as testing for bacteria, 
filtration of surface water, and regulation of nitrates have 
made our water safer. But I believe many of the regulations and 
water quality standards are overly restrictive for small 
systems and do not justify the costs.
    Many of the rules are complex and very difficult to 
understand and implement for both the water systems and State 
regulatory agencies. This is a significant problem for systems 
that do not have experienced full-time operators. Many of the 
small system operators do not understand the regulations, and 
they do not know what they need to do to comply.
    Systems are having to spend an increasing amount of time 
and money trying to comply with regulations. As a result, 
systems do not have the money to make system improvements to 
better serve existing customers or expand services to areas 
where individuals are on unsafe private wells. Many small 
systems spend money on overly prescriptive testing that they 
could be using to upgrade their infrastructure to provide more 
reliable service.
    When the Disinfection/Disinfection Byproducts Rule went 
into effect a few years ago, 75 percent of the 250 surface 
water treatment plants in Oklahoma were unable to comply. With 
training and technical assistance provided by ORWA and the 
Oklahoma Department of Environmental Quality, compliance has 
improved. Currently, over 50 percent of the systems in the 
State are in compliance with the rule, and we continue to work 
with them.
    But the cost of compliance has been extremely high for the 
systems. For many systems, operating costs have escalated 
dramatically. On one system that I am aware of the cost just 
for chemicals alone has gone from $1,800 a month to $18,000 per 
month. It has also been necessary for some systems to upgrade 
their treatment processes or construct new water treatment 
plants at a cost of hundreds of thousands of dollars, maybe 
even millions of dollars, with no immediate health 
improvements.
    The governing boards and operators of public water supply 
systems want to comply with Federal regulations and provide the 
best quality water possible to their customers. To achieve this 
objective systems need training to educate operators and board 
members on drinking water regulatory requirements, technical 
assistance is needed to provide onsite, hands-on help for 
operators in troubleshooting problems and evaluating 
alternatives for enhancing or improving operations and 
treatment processes.
    Rural Water Training and Technical Assistance is a primary 
source of help for small community water systems. These 
programs have contributed substantially to better compliance 
with Federal drinking water regulations and clean water 
regulations and helped to improve system management, operations 
and liability. Continued funding for training and technical 
assistance is essential to maintain grassroots support and 
assistance for small water systems.
    For water systems to be successful in complying with 
Federal regulations and meeting the present and future needs of 
their communities, adequate low cost financing must be 
available for system development and infrastructure 
improvements. Systems in Oklahoma and around the Nation rely 
heavily on Drinking Water SRF and Clean Water SRF for financing 
system improvements. The program is well managed and very 
effective in helping systems meet their water and wastewater 
needs. We encourage Congress to continue funding for these very 
important programs.
    That concludes my remarks. Thank you again for the 
opportunity to appear before the committee.
    [The prepared statement of Mr. Whatley follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
    
    Senator Boxer. Thank you, Mr. Whatley.
    And our last speaker, well, just to let you know after we 
are going to proceed, after we hear from Professor Griffiths, 
who is the Chair of the EPA Science Advisory Board, I am going 
to ask just one question. Then, I am going to allow, of course, 
Senator Inhofe to take his full time. I am going to ask Senator 
Lautenberg if he can then take the gavel because I have got to 
be on the floor of the Senate for some debate. So, that is what 
we are doing.
    So, let me in advance thank everybody for being here.
    So, please, Professor, go ahead.

STATEMENT OF JEFFREY K. GRIFFITHS, M.D., MPH&TM, DEPARTMENT OF 
 PUBLIC HEALTH AND COMMUNITY MEDICINE, ASSOCIATE PROFESSOR OF 
   PUBLIC HEALTH AND OF MEDICINE, TUFTS UNIVERSITY SCHOOL OF 
                            MEDICINE

    Dr. Griffiths. Good morning Chairman Boxer, Ranking Member 
Inhofe and other members of the committee.
    My name is Jeff Griffiths, and I am a public health and 
infectious disease physician at Tufts University. Although I 
serve on the Science Advisory Board as the Chair of the 
Drinking Water Committee, I am speaking today for myself as a 
member of the public health community, not as an official 
representative of that body.
    We supply water to children which contains copper, lead, 
arsenic, nitrates and other toxic compounds. This is 
disgraceful. Our drinking water is contaminated with industrial 
chemicals such as perchlorate and MTBE and agricultural 
chemicals such as nitrates and atrazine. We have, in my 
opinion, a flawed approach to these issues and have allowed lax 
enforcement of regulations. We have failed to protect 
vulnerable people such as children, pregnant women and the 
elderly.
    Our process for identifying worrisome compounds is flawed 
and is doomed to miss truly risky chemicals. Some of them, I 
should say. We test and regulate chemical contaminants chemical 
by chemical, rather than by using reasonable, prudent, common 
sense approaches which would allow us to regulate groups of 
chemicals.
    We simply do not have the scientific capacity to test every 
individual chemical used in the United States. The U.S. EPA has 
the resources to thoroughly examine only a relative handful of 
chemicals. Yet hundreds to thousands of new chemicals are 
introduced into industrial production every year. In support of 
these statements, I have referenced a letter from the Science 
Advisory Board to Lisa Jackson.
    We artificially divide the oversight of agricultural 
chemicals and animal wastes at the State and Federal levels. 
And we have a mess because of this. The majority of fertilizers 
such as nitrates which are applied to croplands end up in 
water. The public health and economic costs to this 
contamination are shifted downstream. It also is destroying 
critical incubators for sea life and related commerce, such as 
in the Chesapeake. It makes the job of treating water for human 
consumption more difficult and more expensive.
    When manure from our industrialized concentrated animal 
feedlot operations is applied to the land, we will contaminate 
the water of some people, some proportion of the time, and make 
some people sick. We must find a way to feed the public 
wholesome food without asking them to drink bad water.
    The water crisis is not solely a rural phenomenon. It is a 
national phenomenon. Cities and towns are dealing with limited 
quantities of water, which is worsened by drought in dry areas. 
Climate variability has also led to increased flooding, which 
overwhelms combined sewer and overflow systems so that sewage 
contaminates our drinking water. We all know it is bad to have 
poop in our drinking water. Water delivery is at risk because 
of our aging infrastructure of pipes in the ground.
    We have institutionalized an approach to testing for water 
contamination that in my opinion will not protect the public 
unless it is changed. We test for contaminants infrequently and 
average the exposure over a year so that we are guaranteed to 
miss important seasonal spikes of contamination, and we give 
false reassurance to ourselves because of this.
    Do we really want pregnant women, babies and children to 
drink water with high levels of contaminants during periods of 
their sensitivity? I should think not.
    In my opinion we need a paradigm shift about water. We have 
to better protect our water from contamination. We must better 
monitor our water. We must face the fact that we cannot test 
every potential chemical contaminant for safety and must devise 
a more rational and comprehensive regulatory approach. We have 
to do a better job of keeping infectious pathogens out of our 
water by stopping sewage overflows and animal manure 
intrusions.
    We must hold our drinking water providers accountable for 
their lapses. We should, in turn, help our drinking water 
utilities to deal with these challenges in three ways. First, 
keep water from being contaminated in the first place so they 
have an easier and less expensive task when removing 
contaminants. Second, help them to adopt modern treatment 
technologies that will remove a suite of contaminants, not just 
the currently identified bad actors but the potential bad 
actors of the future. And third, we must value their work and 
value clean water through managerial, operational and financial 
support.
    If we choose to do these things, we will be healthier, we 
will have spent money in the long run, and we will have acted 
as good stewards for this precious resource.
    Thank you very much for your time, and thank you for this 
opportunity.
    [The prepared statement of Dr. Griffiths follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
    
   
    
    Senator Boxer. Thank you so much. I really appreciate your 
call to action, and I think you and Mr. Baker said it well. If 
we can keep the water from being contaminated in the first 
place, it is far better than having to put all kinds of costly 
repairs into place.
    And I would say to Mr. Baker, and this is my question to 
you, and then I am going to turn it over to Senator Inhofe for 
his time and then the gavel to Senator Lautenberg, I really 
appreciated what you said, Mr. Baker. You said we do not want 
to roll back standards. We want to keep that water clean. But 
we need some assistance, some technical assistance and help.
    And I would say to Professor Griffiths, who is calling for 
a whole new way of looking at our water, even the way we have 
got it now, where we are being told there are violations, there 
is no option, which is why I was so--and I think other 
Senators--were pretty hard on our EPA folks who were here 
because we want them to act on the information that is already 
out there.
    We may have to change the system, but right now the system 
is working in this sense. We know where the standards are being 
violated, but it falls apart because there is no enforcement.
    And I so appreciate Mr. Baker, because you are an important 
witness here. You are President of the Association of State 
Drinking Water Administrators, and you said it beautifully. You 
want to protect our kids, you want to protect our families, you 
do not want to weaken the standards, but you need help.
    So, my question to you is will you help us pass this State 
Revolving Fund, the S. 1005, which Senator Inhofe and I have 
worked so closely on, where we improve the amount of funds that 
go to the rural--we approve the technical assistance, we take 
care of well water. This is our intent.
    And so I wanted to ask you, would you help us? And I mean 
this sincerely. We need to get time on the Senate floor. 
Obviously, it is not going to happen before the end of the 
year, but early next year. We are going to have to file cloture 
on that and move forward. I think there is overwhelming 
support, but there are a few people who do not support it.
    So, can I ask you if you and your agencies would help us by 
simply writing to your Senator Reid and Senator McConnell and 
letting them know that this is important for us to take up?
    Mr. Baker. Thank you, Madam Chairman. Very simply, yes. As 
I said in my testimony, States recognize and need a good SRF 
program. We support overall all the changes that have been 
proposed by this committee in there. Of course, as I said, we 
appreciate the increase in infrastructure funding because our 
public water systems do have tremendous need to address their 
failing infrastructure.
    The set asides that are made available for use for States 
are also extremely important. They can help us to provide 
direct technical assistance to small systems to help build 
system capability as well as for our own enforcement activities 
with the added flexibility that is being proposed in that bill.
    So, yes, we do support it. We do think it is valuable, and 
we will do our efforts to move it forward.
    Senator Boxer. Please. I think it would be very helpful.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    First of all, the Chairman mentioned the legislation that 
we have and the technical assistance is dramatically increased 
with that legislation. Now, since we are kind of confined on 
time, the first panel lasted a little longer than I thought it 
would, I want to confine my questions to Mr. Whatley and then, 
on each question, if you have any, I would like to know from 
you, Mr. Baker, what is happening in Oklahoma is also 
consistent with wishes and problems in other States.
    First of all, Mr. Whatley, do you think a greater emphasis 
by the EPA on the training and technical assistance as opposed 
to enforcement is something that would be helping you to do a 
better job to clean up the drinking water?
    Mr. Whatley. Thank you, Senator. I believe that most of our 
systems in the States do not really understand what they need 
to do and what the rules are. That is why we have some of the 
problems that we have. We have about 7,000 certified operators 
in the State of Oklahoma. We have a turnover of around 1,500 
every year. So, we have a lot of people with no experience and 
very little or no training. So, we think we can address it and 
help systems meet a lot of these requirements through 
educational and onsite technical assistance that we work with 
the State in providing.
    Senator Inhofe. I appreciate that because many of our small 
communities--we are a State of small communities. Many of those 
communities do not have the resources to have the studies and 
all of the things that--and so we rely on the assistance, the 
technical assistance. Do you agree with that, Mr. Baker?
    Mr. Baker. Yes, I do. The complexity of our drinking water 
regulations continues to grow, as does the technology required 
to meet those requirements. We have a challenge of making--
helping people to just to be aware of what the requirements are 
and then to understand what those requirements are and how best 
to achieve them.
    Senator Inhofe. Yes. And I appreciate that. Mr. Whatley, 
could you name some specific EPA regulations or water quality 
standards that you feel are overly restrictive for our small 
systems?
    Mr. Whatley. Well, I just learned yesterday that EPA has 
sent out notice to systems under the Long Term II Enhanced 
Surface Water Treatment Rule. It is going out to those small--
well, all surface water systems that serve less than 10,000 
people. It is going to require monitoring that is going to cost 
about $24,000 a year, and as you pointed out we are a State of 
very small systems. Eighty-five percent of the entities in 
Oklahoma serve less than 3,300 people. So, we will be in----
    Senator Inhofe. That is less than 3,300, and yet the 
benchmark was 10,000.
    Mr. Whatley. Yes, so that----
    Senator Inhofe. That is almost----
    Mr. Whatley. So, 90 percent of our folks are less than 
10,000.
    Senator Inhofe. Ninety percent.
    Mr. Whatley. So, nearly all of our systems in Oklahoma as 
you pointed out are small or very small systems. So it is going 
to be extremely difficult for these systems to meet this 
standard or the launching requirement for cryptospiridium. Of 
course systems already are having to comply with turbidity 
standards which were reduced, I think, by 50 percent a couple 
of years ago from 1 NTU down to .5. So, we are very concerned 
about the effect of that rule.
    The Stage II Disinfection Byproducts Rule is of great 
concern to us. There are 1,000 systems in Oklahoma, or more 
than 1,000 systems, that will be impacted by that rule. These 
are systems that have, that purchase water systems, that buy 
water from a surface water system or another groundwater system 
that have no treatment experience. They are going to be 
required to do monitoring and potentially have to install 
expensive treatment processes to meet the requirements of that 
rule.
    Senator Inhofe. Those are good examples. For the record, 
and by that I mean after this is over we keep the record open, 
I would like to have you list other examples that specifically 
are problems for you because I know that the time does not 
allow us to get into too many of them. You have given a couple 
of good examples.
    Do you want to add to that, Mr. Baker?
    Mr. Baker. I think the particular rules that were mentioned 
are in fact challenging and are particularly challenging for 
the large number of small systems that have to achieve 
compliance with those. But I would also note that I think that 
they are particularly important rules in addressing acute 
contaminants that can impact people's health in the short term 
as well as in the long term.
    So, while I think there are challenges I think we have to 
utilize all the tools in the tool box to try and assist small 
systems to bring them into compliance with those regulations.
    Senator Inhofe. OK, that is good. And then for the record, 
I would like to have each one of you send us something, what 
you think the EPA could do to be of help to us, and 
particularly I emphasize the small communities.
    And Mr. Whatley, my time has expired, and I have to go 
because I am making a talk off campus here. But if you are 
around today, I looked at my schedule, any time between 3 and 5 
o'clock or after 6 o'clock, if you could drop by the office, I 
would like to visit with you.
    Mr. Whatley. Thank you, Senator.
    Senator Inhofe. Thank you, Mr. Chairman.
    Senator Lautenberg [presiding]. Thank you very much. I will 
proceed with a few questions, and then I would pass the gavel 
and the time over to Senator Whitehouse. Everybody is 
interested. The problem is everybody is so busy. And we thank 
you, each, for your testimony.
    Mr. Whatley, one of the things that I kind of deduce as I 
read your commentary is that you say the regulations are--you 
said you believe that many of the regulations and water quality 
standards are unnecessary, that benefits of regulations do not 
justify the cost. You say that many small system operators do 
not understand the regulations.
    Well, since we know that small communities typically have 
revenue shortfalls, are we then consigning people who live in 
these communities to have to bear up under unsanitary 
conditions, contaminated water? What are the alternatives for 
people who live in these communities?
    Mr. Whatley. Senator, we certainly do not advocate some 
lower standard for people in small systems. We think we are all 
entitled to equal health protection. I guess what I was 
alluding to in my remarks is that we think that we need to look 
at the science when we are setting regulations, we need to 
ensure that we are getting the benefit from that regulation, 
more benefit from that, say lowering the standard for THMs from 
160 to 80, we are getting more benefit from that regulation 
than we would by investing our money in helping people pay for 
medical costs somewhere.
    So, we need to take a close look at what kind of benefits 
we are really getting from, the health benefits that we are 
really getting from the regulations.
    Senator Lautenberg. Yes, because I am concerned when there 
is a position saying that they do not have the knowledge, and 
they do not have the facility, and I am wondering where they 
go.
    Mr. Griffiths, do you believe bottled water manufacturers 
should be required to give the public detailed information such 
as the source, where does the water come from, and the level of 
contaminants?
    Dr. Griffiths. Yes, Senator, I do believe the bottled water 
manufacturers should do that. I had the experience about 10 
years ago as a member of the National Drinking Water Advisory 
Council, an organ that advises the EPA, to ask people from the 
FDA could they come and give us some information about that. 
And of course the EPA has hundreds if not thousands of people 
working on drinking water. And that time, the FDA had one-third 
of an FTE operating on this. And it took us several, an 
extended period of time, before we were able to get a 
representative from the FDA to come speak with us.
    Bottled water, as you know, simply has to meet drinking 
water criteria for being put into the bottle. So Senator 
Lautenberg could go ahead and set up his own bottling plant, 
and we would not know where it comes from or anything else like 
that. And we have had people doing that in Massachusetts. They 
just turn on the faucet and do it.
    Senator Lautenberg. I assure you, I would drink it first.
    [Laughter.]
    Senator Lautenberg. Mr. Baker, your testimony, each of you 
made a significant contribution to our hearing today. Recent 
studies said that only 5 percent of the funds under the Clean 
Water State Revolving Fund went to control non-point source 
pollution, like agricultural or urban runoff, point source 
pollution from water pipes.
    And yet, non-point pollution accounts for as much as 60 
percent of the total pollution in the rivers and streams that 
supply our drinking water. What can we do to encourage more 
State action to control non-point? I know it is a big problem 
in my State.
    Mr. Baker. Senator, as you noted, non-point sources of 
pollutants, particularly nutrients, pesticides and other 
agricultural and urban stormwater runoff, are a particular 
challenge, both for folks on the Clean Water Act that are 
trying to ensure the quality of our rivers and streams as well 
as on the drinking water for systems that are using those.
    Recently, the Association of State Drinking Water 
Administrators and State Water Pollution Control 
Administrators, in cooperation with EPA, formed a work group 
over the last year which was called the Nutrient Innovation 
Task Group where we published a call for action that was 
submitted to the Administrator to specifically look at nutrient 
loading and non-point sources of pollution.
    Senator Lautenberg. Yes. I will take just a minute more. 
What is happening to force the States--no, strike that--to help 
the States improve enforcement from EPA? Are you satisfied with 
the efforts of EPA to enforce--to help the States enforce the 
regulations that they are responsible for?
    Mr. Baker. First off, as I said in my testimony, States do 
support, and we actually help develop, the approach that 
Assistant Administrator Giles mentioned for identifying and 
prioritizing significant non-compliers for enforcement. And we 
think that that will help ensure that those systems that are 
presenting the greatest public health threat are the ones that 
in fact we are spending our time taking enforcement actions on.
    Having said that, I want to also note that enforcement is 
extremely time consuming and takes a tremendous amount of 
resources. A single case can take hundreds of hours and lots of 
staff time dedicated to building that case and enforcing it. 
So, while a hammer is one of the most important tools in the 
tool box, you cannot fix everything with it. And we believe 
enforcement is a very important tool, but we cannot address all 
of our systems and all of our problems with enforcement.
    Enforcement all takes a long time. We have cases out there 
on some of most recalcitrant systems that we have been working 
on for years. So, taking enforcement is not necessarily the 
quickest approach to achieving public health protection either.
    So, I guess more directly in answer, I think EPA has been 
working in cooperation with the States and support the States 
when we request that support.
    Senator Lautenberg. I thank my colleague while I ran a 
little over time here. And I am going to just say this and 
close my session here. But the record will be kept open, so we 
would ask you to respond to any inquiries that you get over the 
next couple of weeks as promptly as you can. What you are doing 
is very important.
    And I do close with this statement, that a group of 
scientists, which I am putting in the public record, and they 
say more than 20 scientists are writing to express a collective 
view that oil and gas companies, like any other industry, 
should fully comply with all health and environmental 
protections. Oil and gas operations, they are talking now about 
the fractionation, are known to release substances into the 
environment that are known to be very hazardous to human 
health.
    And with that, I relinquish my--you do not need this. I 
thank you all very much.
    [The referenced information follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
  
    Senator Whitehouse [presiding]. I join my colleagues in 
thanking all of you for being here with us. I was struck by Mr. 
Whatley's testimony about the problems that small systems face. 
In Rhode Island we have a number of small systems as well.
    It strikes me that we are moving into a new environment, as 
Dr. Griffiths described, in which there are more pollutants and 
more chemicals and more human health risks than have been faced 
by systems in the past. I see four nodding heads on that point. 
We are also dealing with a question of the public health, which 
should be, I would say, our highest priority.
    And so I am concerned about the argument that the public 
health should yield to the concerns of small operators who are, 
I think the phrase was, unable to understand or implement the 
new regulatory requirements that are driven not by frivolous 
concerns, but are driven by, frankly, new exposures to new 
chemicals.
    And I am wondering, I guess, Mr. Baker, let me ask you, 
because I understand that Oklahoma is widely populated with 
small systems, from a national perspective, what is the 
continuing role of the small system?
    I know that there cannot be geographic consolidation 
because this is hard, in the ground, fixed infrastructure, but 
are there opportunities for administrative consolidation among 
small systems so that they are not incapable of understanding 
regulations and incapable of implementing regulations? Is it 
time to look at the way in which small systems are structured 
in order to try to meet these new and changed needs?
    Mr. Baker. Senator, I think that there are several 
different approaches that can be utilized to assist small 
systems in achieving compliance with requirements. Those can 
include managerial restructuring. In some cases, where it is 
possible regionalization and becoming part of another system 
physically could be a solution. But due to the geographic 
dispersion that is not always the case.
    I think that there are opportunities for systems to work 
together and to work with technical assistance providers in the 
States in how they are structured and how they can gain some 
better efficiencies of scale by working together. Direct 
technical assistance is going to continue to be part of the 
problem. I mean, it is really a challenge----
    Senator Whitehouse. Part of the solution, I think you mean. 
Direct technical assistance is going to be part of the 
solution.
    Mr. Baker. Yes. Direct technical assistance is going to be 
part of the solution. But the challenge is getting out there to 
the large number of those and helping each of those individual 
operators and owners understand what their requirements are. 
And that is just one of the first basic principles that can be 
there. And then financially----
    Senator Whitehouse. So you agree with Mr. Whatley that 
there is a structural problem out there in that the chemical 
and pollutant inputs into our waters have reached a point where 
safe regulation and testing is a real challenge for water 
systems below a certain size just because of the increased 
complexity driven by the increased pollutants?
    Mr. Baker. They are increasing challenges that present 
themselves. Some small public water systems are more capable of 
meeting those challenges than others, and that is where that 
assistance is needed to help them develop the managerial, 
technical and financial knowledge base in order to operate it.
    Some systems are so small and face challenges of 
contaminants in their drinking water that they do not have the 
proper number of customers in order to support, financially, 
the challenges that they face. In those cases, yes, we have to 
look for alternative structures for them.
    Senator Whitehouse. Yes. Mr. Griffiths, did you have a 
comment on that? You are, OK, engaged in the exchange.
    Dr. Griffiths. Well, I think that it is well recognized 
that we are at risk of having second class water delivery in 
some parts of the country because of these limitations of 
resources and finances. I think we have to fish or cut bait in 
many ways. We have to come up with solutions that will deal 
with these issues. They are genuine issues; they are real 
issues.
    At the same time it is very clear that there are a host of 
chemicals, a sea of chemicals, that we have not really 
understood what their health effects were before. The fact that 
we have frogs and fish with confused gender is a major problem, 
if you ask me. And we have to deal with that.
    And so it is not simply a matter of, I think, tweaking the 
system. We do need a paradigm shift in terms of the way that we 
support water infrastructure and the way that we value water. 
We have to make sure that the small systems get the support 
they need, and at the same time we must be robust in our 
protection when it comes to public health.
    The figure of a 1 in 600 risk for bladder cancer because of 
arsenic is, frankly, not something that I would like to 
publicize, let anybody know. I would be ashamed of it if that 
was the case. It is really a problem.
    Senator Whitehouse. You consider that to be an accurate 
figure? I read it out of a newspaper so it is not always clear 
that that is----
    Dr. Griffiths. It is a central estimate, sir, of some 
scientific information. I think that one of the things that is 
not well appreciated is that while we have contaminants in 
food, we say 1 in 1 million risk of cancer. With drinking 
water, we have a risk level of 1 in 10,000 of having an adverse 
impact. So, our water regulations are inherently 100 times less 
protective, if you will, against something like cancer.
    And this, this is a historic lacuna in the way that we 
think about this kind of thing. We have some very significant 
issues, and there is no way to paper over this. And the small 
systems are bearing the brunt of the managerial and financial 
hit when it comes to this. It does not mean that we should come 
up with a two-tiered system of public health protection of the 
country, though.
    Senator Whitehouse. Well, your testimony has been very 
compelling and helpful. I appreciate it. And I want to take 
this opportunity to thank you also for your service on the 
Scientific Advisory Panel.
    Dr. Griffiths. That is an honor.
    Senator Whitehouse. And I thank all of the witnesses for 
their testimony. It was very helpful to all of us.
    As the previous Chairman said, the record of the hearing 
remains open for a week for anything that anybody would want to 
add.
    The hearing is adjourned.
    [Whereupon, at 12:15 p.m. the committee was adjourned.]
    [An additional statement submitted for the record follows:]

                 Statement of Hon. Kirsten Gillibrand, 
                U.S. Senator from the State of New York

    Thank you, Chairman Boxer, for calling this critical 
hearing. Of the many important issues that this committee is 
responsible for, I can think of none that touches every 
American, in every region of the country, more so than ensuring 
clean drinking water.
    In their most recent Infrastructure Report Card, the 
American Society of Civil Engineers describes the budget 
shortfalls for drinking water infrastructure at staggering 
proportions. They estimate that our Nation's drinking water 
systems need over $108 billion in investment just to meet 
current demands. When taking into account future growth and 
necessary maintenance over the next 20 years, the Nation's 
drinking water systems will require an additional $146 billion.
    The funding needs in my home State of New York follow these 
national trends. According to analysis by the New York State 
Department of Health, which manages the Drinking Water State 
Revolving Funds, over the next 20 years New York drinking water 
systems will require an infusion of nearly $39 billion. The 
current funding streams simply do not meet the lengthy backlog 
in improvements and general maintenance. For instance, in New 
York 95 percent of the projects submitted to the Drinking Water 
State Revolving Funds Program remain unfunded due to lack of 
available funding.
    Chairman Boxer, it is not just our crumbling infrastructure 
that is threatening our drinking water systems. Long known 
threats to the safety of our drinking water supply such as 
arsenic and lead continue to be a problem in many communities 
across the country.
    Just 2 years ago in Rockland County located in New York's 
lower Hudson Valley, elevated levels of arsenic were discovered 
in two wells that service the county water supply.
    New York in particular has been successful in reducing lead 
levels in drinking water over the last decade, but there are 
many communities in the United States still facing health 
threats from lead and other chemicals in drinking water.
    In its investigative series Toxic Waters, the New York 
Times has detailed many of the threats to clean water that 
communities across the United States are facing. In one of 
their recent articles, the author details the high levels of 
lead, arsenic, manganese, and other cancer causing chemicals in 
Charleston, West Virginia. The article goes on to describe the 
effects of many of these chemicals irritating and burning the 
skin from bathing and erosion of tooth enamel leading to a 
child as young as 7 needing multiple capped teeth.
    The series also details the state of the Nation's 
enforcement of water pollution laws. In 2008 alone 
approximately 40 percent of the Nation's water systems violated 
the Safe Drinking Water Act at least once, based on 
Environmental Protection Agency data. These systems provide 
water to more than 23 million Americans.
    One area of major concern is the lack of enforcement of the 
Clean Water Act. According to the New York Times, since 2004 
the Clean Water Act has been violated more than 506,000 times 
by more than 23,000 companies and other facilities. Of those, 
60 percent were found to be in ``significant noncompliance,'' 
which includes major violations such as dumping cancer causing 
chemicals or failure to measure or report where they pollute. 
In total, less than 3 percent of all Clean Water Act violations 
result in fines or any other significant punishment.
    For a nation as blessed as the United States, basic clean 
drinking water should never be a concern.
    But as science advances, we are beginning to learn of new 
threats to our Nation's drinking water. Over the last 2 years a 
series of investigations and articles have outlined how 
chemicals found in everyday products including shampoos, 
lotions and cleaning products as well as medications are 
turning up in waters across the United States.
    An Associated Press investigation from 2007 reported that 
water supplies across the United States tested positive for 
traces of a number of drugs including antibiotics, anti-
convulsants, mood stabilizers and even sex hormones. The United 
States Geological Survey has found numerous cases of 
intersexing occurring in fish across the United States. One 
likely cause that researchers are identifying with the 
increased intersexing taking place in wildlife is from 
endocrine disrupting chemicals that are common in household 
cleaners, laundry detergents, shampoos, hand sanitizers and 
many pharmaceuticals.
    Wastewater treatment facilities are not equipped to remove 
these chemicals from wastewater before treated water is 
released. Likewise, many drinking water systems are not built 
to remove these drugs from our drinking water before it reaches 
our tap.
    It is critical that as this body moves forward with 
increased funding to meet our Nation's drinking water and 
wastewater system needs that we take into account the new 
challenges that we are facing. We currently do not have the 
information as to how best to prevent these pharmaceuticals and 
personal care products from entering into our environment.
    That is why I authored an amendment to S. 1005, the Water 
Infrastructure Financing Act, calling for a 2-year study of the 
presence of pharmaceuticals and personal care products (PPCPs) 
in waters of the United States. My amendment, which was 
unanimously approved by my fellow committee members, takes a 
comprehensive approach to the concerns associated with PPCPs in 
the Nation's water looking at what PPCPs are present, and 
where, how much, and what cost-effective steps can we take to 
control, limit, treat or prevent the disseminations of drugs 
into our drinking water.
    I am confident that by working with Federal, State and 
local authorities as well as industry and consumers we can take 
common sense steps to protect our families and our environment 
from potential adverse health effects.
    Madam Chair, I thank you again for holding this important 
hearing and hope that very soon the Senate will be able to take 
up S. 1005, the Water Infrastructure Financing Act so that we 
can not only address the funding needs but also the real health 
concerns that are associated with the Nation's drinking water 
systems. The legislation passed by this committee in May 
provides $34.7 billion in funding over the next 5 years for the 
Drinking Water and Clean Water State Revolving Funds. This 
funding is critical to digging out from the lengthy backlog in 
critical drinking water and wastewater infrastructure 
improvements New York and other States are facing. Increased 
funding for water infrastructure will create good paying 
American jobs at a time when we need them most, protect both 
public health and our environment, and help to lower property 
taxes by assisting our local communities with financing these 
expensive improvements.

    [Additional material, Rural Water's 2009 Report to Congress 
Documenting Environmental Accomplishments, is available in the 
committee's files.]

                                 <all>
</pre></body></html>
